<html>
<title> - COUNTERTERRORISM TECHNOLOGY: PICKING WINNERS AND LOSERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





        COUNTERTERRORISM TECHNOLOGY: PICKING WINNERS AND LOSERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2003

                               __________

                           Serial No. 108-114

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

92-393              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                        Robert A. Briggs, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 29, 2003...............................     1
Statement of:
    Jakub, Michael A., Director of Technical Programs, Office of 
      the Coordinator for Counterterrorism, Department of State; 
      Edward McCallum, Director, Combating Terrorism Technology 
      Support Office, Department of Defense; Dr. David Bolka, 
      Director, Homeland Security Advanced Research Projects 
      Agency, Department of Homeland Security....................     5
    Patel, Gordhan, president, JP Laboratories, Middlesex, NJ; 
      Jack Sawicki, Director of Business Development, Geomet 
      Technologies, LLC, Germantown, MD; Lee F. Sword, program 
      manager, Military Systems Division, Irobot Corp., 
      Burlington, MA; Richard Mastronardi, vice president of 
      product management, American Science and Engineering, Inc., 
      Billerica, MA; Bruce deGrazia, chairman, Homeland Security 
      Industries Association, Washington, DC; Kenneth P. Ducey, 
      president, Markland Technologies, Inc., Ridgefield, CT; and 
      Laurence D. Bory, vice president, Federal Government 
      Relations, HDR, Inc., Orlando, FL..........................    69
Letters, statements, etc., submitted for the record by:
    Bolka, Dr. David, Director, Homeland Security Advanced 
      Research Projects Agency, Department of Homeland Security:
        Information concerning inventory.........................    65
        Prepared statement of....................................    45
    Bory, Laurence D., vice president, Federal Government 
      Relations, HDR, Inc., Orlando, FL, prepared statement of...   136
    deGrazia, Bruce, chairman, Homeland Security Industries 
      Association, Washington, DC, prepared statement of.........   114
    Ducey, Kenneth P., president, Markland Technologies, Inc., 
      Ridgefield, CT, prepared statement of......................   129
    Jakub, Michael A., Director of Technical Programs, Office of 
      the Coordinator for Counterterrorism, Department of State, 
      prepared statement of......................................    10
    Mastronardi, Richard, vice president of product management, 
      American Science and Engineering, Inc., Billerica, MA, 
      prepared statement of......................................   105
    McCallum, Edward, Director, Combating Terrorism Technology 
      Support Office, Department of Defense, prepared statement 
      of.........................................................    18
    Patel, Gordhan, president, JP Laboratories, Middlesex, NJ, 
      prepared statement of......................................    71
    Sawicki, Jack, Director of Business Development, Geomet 
      Technologies, LLC, Germantown, MD, prepared statement of...    90
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Sword, Lee F., program manager, Military Systems Division, 
      Irobot Corp., Burlington, MA, prepared statement of........    97

 
        COUNTERTERRORISM TECHNOLOGY: PICKING WINNERS AND LOSERS

                              ----------                              


                       MONDAY, SEPTEMBER 29, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Tierney.
    Staff present: Lawrence Halloran, staff director and 
counsel; Robert A. Briggs, clerk; Joseph McGowan, detailee; 
Mary Holloway, intern; David Rapallo, minority counsel; and 
Jean Gosa, minority assistant clerk.
    Mr. Shays. The Subcommittee on National Security, Emerging 
Threats and International Relations hearing entitled, 
``Counterterrorism Technology: Picking Winners and Losers,'' is 
called to order.
    The emergence of terrorism as a threat to domestic security 
laid bare our myriad vulnerabilities, but also unleashed a 
tidal wave of national scientific ingenuity and creativity.
    Long before September 11, government, businesses, and 
individuals pursued development of new technologies to 
strengthen homeland defenses. Research labs, defense 
contractors, Members of Congress and others have been inundated 
with proposals for everything from satellite monitoring cargo 
containers to individual radiation detectors.
    What happens to all those ideas? Who is responsible for 
sorting through that mountain of paper, sifting wheat from 
chaff, and making sure only the best concepts move forward to 
prototype and the marketplace.
    In the past, we found duplication and the lack of 
coordination in Federal counterterrorism research and 
development programs. Testimony before this subcommittee in 
March 2000, described overlapping, unfocused chemical and 
biological defense research programs in the Department of 
Defense, the Defense Advanced Research Projects Agency, the 
Department of Energy labs, and the Department of Justice.
    We also heard about an established interagency forum for 
evaluation and rapid prototyping of counterterrorism 
technologies, called the Technical Support Working Group 
[TSWG].
    Now, to that already crowded field, add the Department of 
Homeland Security [DHS], which Congress charged to act as both 
the developer and clearinghouse for innovative technologies.
    Today, we focus on the TSWG process, their performance, or 
its performance, and its potential role with DHS in channeling 
the torrent of homeland security technologies into a coherent 
stream.
    In terms of process, the working group relies on Broad Area 
Announcements to sweep the technological horizon for proposals. 
The subgroups of interested agency representatives and experts 
use streamlined formats to speed evaluation of the responses. 
Projects meeting specific requirements have been nurtured and 
brought quickly to production.
    In the near term, DHS will use the Technical Support 
Working Group process to develop a substantial volume of annual 
funding for prototype technologies, but DHS officials concede 
they are establishing similar and overlapping capabilities 
within their organization, so we asked TSWG participants, both 
government agencies and private sector innovators, to assess 
the past and potential of the working group in establishing and 
implementing governmentwide priorities for homeland security 
technologies.
    We thank all our witnesses for their time and expertise, 
and we look forward to their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.001
    
    [GRAPHIC] [TIFF OMITTED] T2393.002
    
    Mr. Shays. At this time, let me just recognize our first 
panel, and then I'll swear them in.
    We have Mr. Michael Jakub, Director of Technical Programs, 
Office of the Coordinator for Counterterrorism, Department of 
State.
    We have Mr. Edward McCallum, Director, Combating Terrorism 
Technology Support Office, Department of Defense.
    We also have Mr. David Bolka, Director of HSARPA, which is? 
Homeland Security Advanced Research Projects Agency, right 
below. It's Doctor, I'm sorry, from the Department of Homeland 
Security.
    At this time, gentlemen, if you would stand, we'll swear 
you in and we'll proceed.
    If there is anyone else that you may want to testify, or 
respond to questions?
    [Witnesses sworn.]
    Mr. Shays. We'll start with you, Mr. Jakub.
    Thank you very much, and what we're going to do is allow 
you to speak 5 minutes and then roll over another 5. I would 
prefer you not take 10, but I don't want you to feel rushed in 
your 5 minutes. With these mics you need to get pretty close to 
them, and you also need to make sure they're on.
    That's not close enough. I'm sorry. You're going to have to 
move it right in front.
    There we go.

STATEMENTS OF MICHAEL A. JAKUB, DIRECTOR OF TECHNICAL PROGRAMS, 
 OFFICE OF THE COORDINATOR FOR COUNTERTERRORISM, DEPARTMENT OF 
     STATE; EDWARD McCALLUM, DIRECTOR, COMBATING TERRORISM 
  TECHNOLOGY SUPPORT OFFICE, DEPARTMENT OF DEFENSE; DR. DAVID 
 BOLKA, DIRECTOR, HOMELAND SECURITY ADVANCED RESEARCH PROJECTS 
            AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Jakub. Thank you very much, Mr. Chairman, for the 
opportunity to testify today on the National Combating 
Terrorism Research and Development Program, which is carried 
out by the interagency Technical Support Working Group.
    As you know, I'm accompanied today by Mr. Edward McCallum, 
from the Office of the Assistant Secretary of Defense for 
Special Operations and Low Intensity Conflict; and in the 
future, I'll just say SOLIC so everybody knows what we're 
talking about, and by Mr. David Bolka from the Department of 
Homeland Security.
    Before I start, Ambassador Black, the Coordinator for 
Counterterrorism at the State Department sends his regards to 
you and to other members of the subcommittee. He notes that he 
wanted to be here today, but he has a schedule conflict and 
he's currently traveling overseas.
    Mr. Shays. I'm told that you're a better replacement; is 
that right?
    Mr. Jakub. My boss is here, so we'll have to put that into 
the----
    Mr. Shays. OK, as long as you know what you're talking 
about.
    Mr. Jakub. With your permission, we wanted to submit a 
slightly revised statement for the record.
    I'm going to be talking to you today and trying to put the 
TSWG into a broad perspective for you. The other presentations, 
I think, will narrow it down a little further, but by 
approaching it in this manner, you're going to get a feel for 
the entire program.
    The hearings come at a very good time. They come at a time 
of daily reminders of the terrorist threat, and I don't want to 
go into a lot about the terrorist threat, but we need to put 
this in a better perspective because you're going to hear us--
at TSWG, hear us talk about a threat-driven, requirements-based 
program; and everything we do derives from the nature of the 
threat that we are facing today as a country.
    Just a couple points I want to make. The terrorist threat 
is spreading geographically. There is no geographic area that 
is immune from this type of threat. September 11, the events of 
September 11, brought the events home to the continental United 
States. Bali, which occurred last October, demonstrates that no 
area, no matter how idyllic, is immune to the threat of 
international terrorism.
    Second, terrorist capabilities and especially their 
technical capabilities are growing and increasing. Terrorists 
have demonstrated they can acquire sophisticated weapons like 
the SA-7 that they attempted to use last year in Mombasa. They 
get these either from State sponsored support or the black 
market, and they also get training from various State sponsors.
    Terrorists are also sharing information on technical 
expertise, for example, specifically in areas of improvised 
explosive devices, explosive mixtures, detonating systems and 
the like. Information from the cookbooks and the computer files 
that were seized in Afghanistan are, as we have found out, in 
the hands of other terrorist groups. There's also a 
preoccupation by some terrorist groups today with chemical, 
biological, and radiological materials and toxic industrial 
chemicals.
    The arrests in the United Kingdom and France earlier this 
year and in Italy last year demonstrate this current 
preoccupation. Thankfully, those attacks were thwarted before 
any real damage could have been carried out, but they are a 
possible harbinger of things to come, and they are things that 
those of us working in technology development need to keep 
uppermost in our minds. We need to be aware of the evolving 
nature of the terrorist threat.
    In terms of the U.S. response, Mr. Chairman, the United 
States and its allies have been working hard to prevent 
terrorist attacks through a variety of means. We highlight a 
number of those in the written statement. The one I want to 
focus on today, though, is our effort to rapidly develop and 
apply technology to meet the challenges posed by terrorists.
    Specifically, our challenge is to provide a coherent and 
consistent context for technology development based on the 
threat, technical innovation, real operator needs, and proven 
procedures and tactics. Simply put, the TSWG philosophy is to 
try to ``get ahead of the curve.'' We want to try and 
anticipate future weapons and tactics that may be used by 
terrorists and develop good countermeasures to defeat terrorist 
capabilities and, at the same time, enhance the 
counterterrorism capabilities of the United States and its 
allies.
    We provided in the written statement a pretty detailed 
description of how the TSWG program came to be and its funding 
sources. I don't want to review that here in detail with you, 
but I do want to make a couple points.
    Counterterrorism R&D was one of the key issues addressed in 
1986 in the Vice President's Task Force Report on Combating 
Terrorism. That was chaired by then-Vice President Bush. The 
task force recommended the formation of an interdepartmental 
mechanism to coordinate a national R&D program aimed at filling 
the gaps in existing R&D and trying to prevent duplication of 
efforts. State, and specifically my office, was assigned 
responsibility for developing and coordinating this effort, and 
to accomplish that task, we formed the TSWG, which has existed 
since that time.
    Initial funding for TSWG was centered in the State budget. 
However, by the early 1990's, it came to be recognized in 
Congress, within the administration, within all the departments 
at that time, that if that funding and if that program was 
going to grow, it was going to have to have funding 
contributions from a lot of other agencies besides the 
Department. In response, the DOD acknowledged the importance of 
the program and formally established a dedicated funding line 
beginning in fiscal year 1992 to support the TSWG and the 
national program. From that date until today, both State and 
Defense annually contribute what we call core funding for the 
program with DOD providing the ``lion's share'' of those core 
funds. Other departments and agencies, however, also contribute 
funds based on their interests, their needs, and the degree to 
which our national program is addressing their specific 
requirements.
    Our current organization for TSWG is relatively simple and 
straightforward. It demonstrates both the TSWG's 
interdepartmental approach and our focus on developing 
technology in those critical functional areas necessary to have 
a well-rounded counterterrorism program.
    You should have an attachment with our statement up there 
which gives you a line or block chart. You might want to refer 
to that just for a second.
    TSWG is a jointly administered effort with Defense. My 
office, the Office of the Coordinator for Counterterrorism, 
provides policy oversight and overall program direction through 
our chairmanship.
    Mr. Shays. I'm going to ask you to suspend. You want us to 
refer to what?
    Mr. Jakub. There should be an attachment there, sir, which 
gives you a line of--yes, sir. That's it.
    Mr. Shays. Do we have that?
    OK. Thank you.
    Mr. Jakub. If you take a look at that chart, you'll see 
that the program is a jointly administered effort with Defense; 
and my office, the Office of the Coordinator for 
Counterterrorism, provides policy oversight and overall program 
direction through our chairmanship of the TSWG's executive 
committee. We also contribute core funds to the program. OASD/
SOLIC provides technical oversight, executes and administers 
the program on a daily basis through what is called the 
Combating Terrorism Technology Support Office and also 
contributes the lion's share of core funding for the program.
    If you refer to all the blocks across the bottom of the 
chart, those are our functional subgroups. Ten Federal 
departments and a number of Federal agencies, representing over 
80 elements of the Federal Government, participate in those 
functional subworking groups. This is where requirements are 
generated and proposals are evaluated. Mr. McCallum is going to 
explain this in a lot more detail in a few minutes.
    In addition to Federal elements, we have extended 
membership invitations to selected State and local 
organizations and to some congressional elements as well. For 
example, the Capitol Police, the Senate Sergeant at Arms and 
the Office of the Architect of the Capitol also participate on 
several of the TSWG's subworking groups. We like to hear the 
requirements from the Hill as well as those from Federal 
departments.
    Most recently, we reached agreement with the new Department 
of Homeland Security to join the TSWG. As a result, the TSWG 
will implement, with the support of DHS, those rapid 
prototyping and development technology requirements of interest 
to that department, many of which are also of interest to other 
departments and agencies as well. DHS has also agreed to 
contribute funding to the TSWG to assist in the program.
    Our program focuses on advanced technology development 
activities to meet the near-term counterterrorism and 
antiterrorism technology and equipment needs of the Federal 
community. Specifically, we support U.S. diplomatic, 
intelligence, security, law enforcement, the military, and the 
first responder communities.
    I won't go into examples of all the successes that we have 
had, but if you remember the threat I talked a bit about just 
at the beginning of this presentation, we mentioned terrorist 
interest in CBR materials. Two of our more recent projects have 
been the escape masks which have also been issued to Members of 
Congress and are being bought, right now, by other departments; 
and more recently we have produced and are disseminating now a 
low-cost dosimeter badge designed to give the wearer an 
immediate indication of exposure to a radiological source.
    Now, those are just two examples describing how our program 
is contributing to the global war on terrorism. There are some 
others which, because of time and of classification, I can't 
discuss in an open forum. You should be aware, however, that 
some of the equipment that's being used today by our military 
forces and intelligence forces in Afghanistan and Iraq, as well 
as equipment being used right now to provide antiterrorism 
force protection for our embassies and for our military bases, 
both home and abroad, were developed by the TSWG program. We 
can provide you more examples that you may be interested in.
    One other aspect of our program is that we also have 
developed cooperative R&D agreements with three selected NATO 
and major non-NATO allies. This is done to assist in helping us 
accomplish our objectives. Thus, we can leverage our own 
funding. These working arrangements are with Canada, Israel, 
and the United Kingdom. Successfully completed projects result 
in equipment that we both--both we and our partners--have 
jointly developed and are employing, and in a written 
statement, I give you some examples. I don't want to dwell on 
them here. There are a lot of others, as well.
    In conclusion, Mr. Chairman, we believe the TSWG program is 
a valuable arrow in the national quiver for countering the 
evolving terrorism threat. We'd like to expand the program by 
adding a few more foreign partners who have demonstrated R&D 
capabilities in counterterrorism technologies, who share our 
views on the threat, have an appropriate interagency focus in 
their technical development activities and are willing to pay 
their fair share in joint technology development.
    When combined with other R&D programs for combating 
terrorism, for example, those that are going to be developed in 
the Department of Homeland Security as well as existing ones in 
DOD, the Intel Community, the FBI, and other agencies, we 
believe we're making real progress in addressing the technical 
nature of the terrorist threat.
    Those are us who work in the TSWG program are very proud of 
its accomplishments. Our guiding goal here is to put enhanced 
and usable technical capability into the hands of those 
involved on a daily basis in conducting the global war on 
terrorism, and we believe we're achieving that goal. We believe 
our ability to be successful is derived from our current 
business practices, which are based on a requirements-driven 
process, featuring extensive information exchange with both the 
user and developer communities. We're also mindful and thankful 
for the dedication and hard work of all the men and women who 
are part of the TSWG family.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Jakub follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.003
    
    [GRAPHIC] [TIFF OMITTED] T2393.004
    
    [GRAPHIC] [TIFF OMITTED] T2393.005
    
    [GRAPHIC] [TIFF OMITTED] T2393.006
    
    [GRAPHIC] [TIFF OMITTED] T2393.007
    
    Mr. Shays. Mr. McCallum.
    Mr. McCallum. Good afternoon, Mr. Chairman, members of the 
committee. I'm Edward McCallum, Director of the DOD Combating 
Terrorism Technology Support Office, the office that manages 
the affairs of the Technical Support Working Group, which I'll 
call the TSWG from now on, as most other people do, and the 
Military Explosive Ordnance Disposal Low-Intensity Conflict 
program.
    Mr. Jakub has artfully described the history and heritage 
of the TSWG, so my oral testimony will emphasize the 
organization, some of the business processes that he spoke of, 
and a few selected successes. We have for your display an easel 
board with some charts.
    Now, there are eye charts for all of us, and for you, too, 
but we will refer to some pages in the written testimony that 
also include those charts.
    As Mr. Jakub stated, our mission is to conduct the National 
Interagency Research and Development Program for Combating 
Terrorism.
    Mr. Shays. Mr. McCallum, this chart is also available for 
us. Is it in the----
    Mr. McCallum. I'll get to the chart in just a moment, but 
this chart is displayed on page 3 of the written testimony.
    Mr. Shays. Thank you. OK.
    Mr. McCallum. The TSWG carries out its mission by providing 
technologies to support both Armed Forces overseas, who are 
bringing the fight to the enemy, and first responders at home. 
TSWG-developed technologies are not proprietary to a single or 
particular user base, but frequently have applications to 
warfighters and first responders. Our technologies are being 
used for offensive warfighting operations and for defensive 
measures at home. Sensors and detectors assist in preventing 
incidents, while other technologies help mitigate the 
consequences of these actions or attribute culpability for 
these incidents when they occur.
    The organization of the TSWG includes representatives from 
over 80 Federal organizations, and although the eye chart is 
difficult to read, it really shows the expanse of participants, 
and that's displayed on page 3 of the written testimony for 
your review. It crosses the depth and width of the Federal 
Government from Agriculture to Defense to all of the other 
Homeland Security elements including DHS.
    Departments and agencies, including representatives from 
our first responder end-user communities, such as firemen, 
policemen, HAZMAT, bomb squads, participate in nine of these 
subgroups. The organization is displayed in the second easel 
chart and also on page 2 of the testimony. It's the same 
organization that Mr. Jakub displayed before you, but I wanted 
to go for just a moment across the bottom. He described the 
management oversight process, but if you take a look at the 
chart, you will see a broad representation of Federal agencies 
who chair these subgroups.
    Below those single-letter agencies are represented about 
300 individual operators, scientists, and engineers from across 
the Federal Government and our first responder community who 
come to the table to describe their requirements and to help us 
shepherd them through the entire procurement process.
    We believe we operate under a highly successful integrated 
business model, and we'll display it on a third easel chart, 
which is available on page 4, and I'll speak for just a moment 
to that chart.
    As Mr. Jakub mentioned, we start the year in January with a 
``Threat Day'' where members of the intelligence and law 
enforcement community come before our 300--approximately 300 
members and describe to them what the threat situation is in 
real-day terms; and that--not only the threat, but they help us 
define and prioritize requirements for the upcoming year. The 
requirements definition/prioritization by ultimate users 
assures that R&D products produced by TSWG's rapid prototyping 
program will ultimately enter the marketplace or military 
acquisition process.
    It's followed, just before the 12 o'clock and where you see 
BAA for Broad Agency Announcement, by advanced annual program 
briefing industry, where we brief prospective vendors on 
requirements and invite their industry comments and 
clarification. This process helps assure that what we get from 
industry meets our specific, posted requirements.
    TSWG utilizes a three-step process for managing this 
process as depicted on the right-hand side of the chart. We 
first ask for a one-page quad chart from industry. We ask for 
that in order to minimize their expense and to maximize our 
ability to review their proposals and get them out to the 
community. We recognize that the preparation of good proposals 
requires a substantial amount of time and money from industry, 
and it manages the selection process through the stages of quad 
charts, white papers and final proposals.
    The success rate for final proposals is always above 80 
percent, and sometimes it gets up to 90 percent. The entire 
process of posting requirements and informing proposals on how 
to apply and the evaluation is done electronically through a 
Broad Agency Announcement electronic commerce system, which we 
call a BIDS, which is the Broad Agency Announcement Information 
Delivery System, and it's available on our Web site at 
www.bids.tswg.gov.
    The process is aimed at putting prototypes into the hands 
of users within approximately 24 months. A few years ago, we 
used to talk 18 months. The process has gotten a little larger 
and slightly more involved, and in the last years we sometimes 
have given products to our users, particularly within the 
military front within days, but much of the low hanging fruit 
has been picked in this endeavor.
    In the written testimony, we've given you a dozen or so 
successes which are in the hands of users and which we've 
delivered in the last year or so. In addition to that, I just 
wanted to bring one hard piece here.
    We've been attempting to develop technology which is 
handheld, so that first responders, whether they're HAZMAT 
teams or military units, can have it in their pockets or their 
rucksacks and carry it usefully. One of our providers this year 
developed for us a heat stress calculator, which has been very 
popular in both the military community and the Justice 
Department for first responders.
    We've also read and some of us have experienced how 
uncomfortable full chemical outfits can be, particularly when 
under any kind of heat stress, and in fact, in Southeast Asia I 
lost more troops to heat stress than I did to either disease or 
enemy fire. This calculator, within about 1 minute can tell you 
what a person in any of these conditions, in various heat and 
various humidity conditions and work load--you know, how long 
they can normally endure; and it is being looked at by firemen 
and military users.
    And one that I did want to bring to your attention--and we 
have copies here for you--is a Best Practices and Guidelines 
for Mass Personnel Decontamination. A few years ago, when the 
B'nai B'rith was threatened here in Washington, DC, and we saw 
scenes of civilians being run between some--a couple of fire 
department hose trucks, it occurred to us that the procedures 
that had been developed for military people wouldn't 
necessarily fit for this, you know, Capitol Building or people 
around the world, so we set out to develop a Best Practices and 
Guidelines. It encompasses not just science and evidence-based 
practices, but also best business practices and science 
practices. It was developed by the United States, the U.K., and 
Canada.
    In closing, I'd like to cite what I believe to be 
distinctive about our Technical Support Working Group 
accomplishments. They represent real problems to real solutions 
encountered by key participants on the war on terrorism. They 
represent and meet real requirements of the war ascribed by 
end-users, and their transition to general use is assured by 
the fact that end-users have been part of the TSWG process from 
inception to ultimate product consumption.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. McCallum follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.008
    
    [GRAPHIC] [TIFF OMITTED] T2393.009
    
    [GRAPHIC] [TIFF OMITTED] T2393.010
    
    [GRAPHIC] [TIFF OMITTED] T2393.011
    
    [GRAPHIC] [TIFF OMITTED] T2393.012
    
    [GRAPHIC] [TIFF OMITTED] T2393.013
    
    [GRAPHIC] [TIFF OMITTED] T2393.014
    
    [GRAPHIC] [TIFF OMITTED] T2393.015
    
    [GRAPHIC] [TIFF OMITTED] T2393.016
    
    [GRAPHIC] [TIFF OMITTED] T2393.017
    
    [GRAPHIC] [TIFF OMITTED] T2393.018
    
    [GRAPHIC] [TIFF OMITTED] T2393.019
    
    [GRAPHIC] [TIFF OMITTED] T2393.020
    
    [GRAPHIC] [TIFF OMITTED] T2393.021
    
    [GRAPHIC] [TIFF OMITTED] T2393.022
    
    [GRAPHIC] [TIFF OMITTED] T2393.023
    
    [GRAPHIC] [TIFF OMITTED] T2393.024
    
    [GRAPHIC] [TIFF OMITTED] T2393.025
    
    [GRAPHIC] [TIFF OMITTED] T2393.026
    
    [GRAPHIC] [TIFF OMITTED] T2393.027
    
    [GRAPHIC] [TIFF OMITTED] T2393.028
    
    [GRAPHIC] [TIFF OMITTED] T2393.029
    
    [GRAPHIC] [TIFF OMITTED] T2393.030
    
    [GRAPHIC] [TIFF OMITTED] T2393.031
    
    Mr. Shays. Dr. Bolka.
    Dr. Bolka. Thank you.
    Good afternoon, Mr. Chairman, members of the subcommittee--
--
    Mr. Shays. Doctor, could I have you just move that mic a 
little closer to you?
    Dr. Bolka. A little closer?
    Mr. Shays. Yes, it helps.
    Dr. Bolka. Is that better?
    Mr. Shays. Much better.
    Dr. Bolka. Thank you.
    I am Dr. David F. Bolka, Director of the Homeland Security 
Advanced Research Projects Agency [HSARPA], we wish we had a 
better acronym, but we don't.
    I'm pleased to appear before you this afternoon to discuss 
our relationship with the Technical Support Working Group 
[TSWG]. In your letter you ask several questions about this 
relationship. I trust that my testimony, in combination with 
that of Mr. McCallum and Mr. Jakub, addresses all of them.
    As you know, HSARPA was created by the Homeland Security 
Act of 2002. The responsibilities of the Director are specified 
in that act. Paraphrasing in the area of research and 
development we support both basic and applied homeland security 
research to promote revolutionary changes. That's about 10 to 
15 percent of our budget in the technology to promote homeland 
security. We advance the development, testing and evaluation, 
and deployment of critical technologies and also we have a 
prototyping, rapid prototyping mission, and that's the third 
part of our mission.
    This is the one area where our mission and that of the TSWG 
overlap the most. Many of our DHS user agencies have worked 
with TSWG in the past and continue to do so. Mr. McCallum has 
described some of the technology that TSWG has brought forward 
for them. I don't see this overlap and rapid prototyping 
responsibilities as either debilitating or wasteful. There is 
sufficient work for all of us to develop these technologies.
    As Mr. McCallum described, in 2003, while HSARPA was being 
organized and hiring staff, we provided funds for a combined 
DHS/TSWG Broad Area Announcement that was issued on May 14, 
2003. This BAA listed 51 top priority research and technology 
needs that we share with TSWG.
    DHS staff members have participated in working groups with 
TSWG and have helped evaluate many of the quad charts and white 
papers that were submitted in response. We also participated in 
evaluating the proposals that result from this solicitation, 
and our requirements were incorporated in the solicitation. 
We're represented currently on the executive committee by my 
Deputy Director, Dr. Jane Alexander, and in several working 
groups by S&T staff members and other DHS members.
    Last Tuesday, HSARPA issued its first research announcement 
for detection systems for biological and chemical 
countermeasures. This announcement begins our work on the next 
generation of biological and chemical sensors and systems. The 
research announcement solicits white papers leading to 
proposals from industry, academia, and laboratories in five 
technical topic areas, two biological and three chemical. We 
are using TSWG'S established BID system to publish the research 
announcements, to electronically register those who respond, to 
collect their white papers and to distribute them to technical 
reviewers.
    This morning we held a bidders' conference here in 
Washington to provide detailed information to potential 
bidders. There were somewhat over 300 people who attended that 
bidders' conference.
    In HSARPA we have an approved staffing plan that will see 
staffing to about 50 percent of the authorized scientific and 
technical head count early in 2004, reaching about 100 percent 
by late summer. We receive legal, security, facilities, and 
administrative support from our DHS Management Directorate. Our 
first contracting officer and attorney have been assigned. 
Also, I have seven technical/scientific professionals on board 
at this point.
    As HSARPA develops its own capability to solicit the 
country's best technical ideas, concepts, technologies, and 
systems, we will rely less on the TSWG infrastructure and more 
on our own. It's worth noting that our development involves not 
only creating the ability to solicit and evaluate, but the 
simultaneous capability to execute high-quality research and to 
execute programs as we proceed.
    For fiscal year 2004, just under 25 percent of the HSARPA 
budgets will be expended in rapid prototyping. We expect that 
TSWG will perform this function with us in the near term with 
our participation. In a statement before the House 
Appropriations Subcommittee on Homeland Security last April 10, 
DHS Under Secretary for Science and Technology, Dr. Charles 
McQueary, said the Science and Technology Directorate would 
establish a partnership with the Technical Support Working 
Group. We have done that.
    To implement that partnership, DHS requested $30 million in 
fiscal year 2004 to solicit near-term capabilities that can be 
rapidly prototyped and fielded, but Congress has increased this 
funding to $75 million in the fiscal 2004 appropriation. That's 
why the percentage of our budget for private prototyping has 
gone from roughly 10 percent to about 25 percent.
    As HSARPA matures and the Systems Engineering and 
Development branch of the S&T Directorate staffs up, we will 
assume the majority of rapid prototyping responsibility and 
we'll coordinate it internally with our S&T developments. We 
will continue to fund TSWG to perform rapid prototyping work 
when it is mutually beneficial.
    Over the next few months, we will continue to refine and 
will document our working relationships with the TSWG. Our 
intent is to fulfill the clear intent of the establishing 
legislation and to execute the full scope of HSARPA functions 
as rapidly as staff and facilities can be assembled. We believe 
that TSWG experience and facilities can help us achieve that 
goal in the near term, and under any foreseeable circumstances, 
we will retain our position on the TSWG executive board to 
collaborate, share information, join in mutually interesting 
developments, avoid unnecessary development
duplication, and derive mutual benefit from our continuing 
association.
    Subject to any questions you may have, Mr. Chairman, that 
concludes my testimony.
    Thank you.
    [The prepared statement of Dr. Bolka follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.032
    
    [GRAPHIC] [TIFF OMITTED] T2393.033
    
    [GRAPHIC] [TIFF OMITTED] T2393.034
    
    Mr. Shays. I thank you very much.
    In making reference to the Technical Support Working Group, 
I referred to it as TSWG and my staff director said, It's TSWG, 
and I said, ``No grown man would say those words.'' and now you 
make me feel very comfortable; I'll be the fourth to do it. 
That's what we've been referring to it as for the last 10 
years?
    Dr. Bolka. Yes, sir.
    Mr. Shays. OK.
    Let me just take care of some business first and recognize 
that Mr. Tierney is here and I thank him very much. It gives me 
the opportunity to ask unanimous consent that all members of 
the committee be permitted to place an open statement in the 
record and the record remain open for 3 days for that purpose.
    Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record, 
and without objection, so ordered.
    I'd like to start out with Dr. Bolka, and just have me be 
comfortable with what we've done with the Department of 
Homeland Security.
    We basically established the Department with 185,000-plus 
folks. This was the committee that had the responsibility for 
reorganization, and I was very comfortable in supporting that. 
It had basically four legs to this operation. It had the Under 
Secretary of Science and Technology, Under Secretary of 
Information Analysis and Infrastructure Protection, and then 
another Under Secretary for Border and Transportation Security 
and finally the Under Secretary of Emergency Preparedness and 
Response. I feel like these tables are much different sizes 
here. Obviously, Border and Transportation Security is a pretty 
huge part of DHS.
    How many employees work under Science and Technology?
    Dr. Bolka. I don't know, Mr. Chairman, but I will find out 
and----
    Mr. Shays. How many work under your particular part of 
that?
    Dr. Bolka. In Science and Technology, we have an 
authorization of 180 end strength.
    Mr. Shays. OK. Under Science and Technology, total?
    Dr. Bolka. Yes.
    Mr. Shays. That's what I meant, but we're now under HS--
your particular area--in HSARPA.
    Dr. Bolka. I have a staffing plan which will get me to 
approximately 135 staff, 62 of which are government, and the 
rest would be support contractors.
    Mr. Shays. And that's out of a total amount, within this 
directorate, of how many?
    Dr. Bolka. About 108 government employees. I'd have about a 
third of them.
    Mr. Shays. Now, going on to you, Mr. Jakub and Mr. 
McCallum, I am trying to think about the hearing we had way 
back in March 2000, and putting in perspective today, since 
obviously a lot's happened since then, with September 11.
    I don't quite have a grasp of--TSWG is basically in the 
Department of Defense, but it is under the jurisdiction of the 
Department of State?
    Mr. Jakub. TSWG, as I mentioned----
    Mr. Shays. Trying to confuse me?
    Mr. Jakub. TSWG, as I mentioned during the testimony, came 
as a result of a finding that was in the Vice President'S Task 
Force Report. The Department of State was asked to take on that 
job.
    Mr. Shays. And that's in 1980, 1989?
    Mr. Jakub. 1986.
    Mr. Shays. 1986?
    Mr. Jakub. Yes. We exercise program direction and policy 
oversight over the program. It's executed by the Department of 
Defense, so it's a joint State-Defense effort. That was done 
deliberately so we wouldn't have to create another extra 
bureaucracy within the State Department to handle this, and 
that's how it came about.
    Mr. Shays. So is it funded out of DOD?
    Mr. Jakub. It's funded out of both. Both of us contribute 
money to what we call ``core funding.''
    Mr. Shays. Then who ultimately is in charge? I'm not clear, 
as to my knowledge of who ultimately is in charge.
    Mr. Jakub. Who ultimately is in charge for program 
direction and overall policy oversight of the program is my 
boss, Ambassador Black, the Coordinator for Counterterrorism. 
Mr. O'Connell, who is the Assistant Secretary for Special 
Operations and Low-Intensity Conflict, is in charge of program 
execution.
    Mr. Shays. OK. And if there's a disagreement between the 
two, who trumps whom?
    Mr. Jakub. We haven't ever gotten to that point, to be very 
honest with you. It's been run from Day One and we have never 
run into that problem.
    Mr. Shays. When I looked at the number of folks involved, I 
had this sense that Department of Homeland Security was going 
to be basically the one that evaluated any proposals that would 
impact the Department of Homeland Security. But I'm obviously 
wrong, so Dr. Bolka, tell me how it works.
    Dr. Bolka. My understanding, Mr. Chairman, is, and my 
experience in the previous BAA is, that members of Homeland 
Security user groups, and in my case, members of--technical 
members of my staff, participate in the evaluation of the quad 
charts, the white papers, and the proposals. They also meet, as 
you saw in Mr. McCallum's chart, to set requirements; and so 
our requirements are incorporated with the other requirements 
to ensure that they're all addressed and there is no 
duplication. Then, once the program has been executed, the 
results are reported to all those who are participating.
    Mr. Shays. But basically the proposals go to TSWG; they 
don't go to you?
    Dr. Bolka. If that's the mechanism that we set out, that's 
correct.
    Mr. Shays. I don't understand if.
    Dr. Bolka. OK.
    Mr. Shays. In other words, it hasn't been decided?
    Dr. Bolka. No. In the case of the BAA that we had last 
summer, the proposals did go to TSWG. We sent the money to 
TSWG, and TSWG will be executing the programs that result from 
the proposals.
    In the case of our recent research announcement, which we 
held a bidders' conference for today, we are using the TSWG 
infrastructure to collect the white papers and to assign for 
evaluation those that come in prior to selecting them. In this 
case, my program managers will be running the programs that 
result from this. There will be full visibility for all of the 
members of TSWG as to what we're doing, so there will be no--
little duplication, if possible.
    Mr. Shays. Maybe I'll understand it better this way.
    Dr. Bolka. OK.
    Mr. Shays. Why didn't we put TSWG under the Department of 
Homeland Security?
    Maybe Mr. Jakub, Mr. McCallum, you can tell me why we 
didn't.
    Mr. McCallum. Yes, sir, Mr. Chairman.
    As I mentioned in my brief testimony, a subset of what we 
do in combating terrorism is involved in homeland defense and 
the defense of items and facilities and personnel within the 
domestic United States.
    Another large part of what we do is in support of the 
offensive war on terrorism overseas, in support of the State 
Department and the Intelligence Community and the Department of 
Defense.
    The technologies that you'll see and talk about in a few 
moments, like the chem-bio suits in front of you, can easily be 
used by soldiers on the battlefield or HAZMAT teams in St. 
Louis. The robots that you'll see demonstrated are used by 
military explosive ordnance disposal teams to address the 
improvised disposal device, devices we're seeing used in the 
Middle East or by teams that your own Capitol Police use, 
systems that we develop.
    The technology isn't specific to a stovepipe of users or an 
item turf. We develop technologies for all users; and within 
our subgroups, they are all represented and they take the parts 
that they need to fulfill their missions back to their home 
organizations, whether it's the Department of Defense, the 
Department of State or the Department of Homeland Security.
    Mr. Shays. Now, you have nine subgroups, correct?
    Mr. McCallum. Yes, sir.
    Mr. Shays. Yes. How many people--I'm trying to visualize, 
and they come from all these various departments.
    Maybe I need to be clear: How many do you have on your 
staff under TSWG?
    Mr. McCallum. I have approximately 70 people today, sir.
    Mr. Shays. And is that a full complement?
    Mr. McCallum. That's a full complement. That's 
approximately 20 program managers, scientists, engineers, and 
operators, approximately 20 contracting and security support 
people from DOD, and the rest are support contract people from 
specific technical organizations that we need to support.
    Mr. Shays. Mr. Jakub, how many people do you have in yours?
    Mr. Jakub. Two.
    Mr. Shays. OK.
    Now, do you work out of the State Department?
    Mr. Jakub. Yes, sir.
    Mr. Shays. You're at the Pentagon, Mr. McCallum?
    Mr. McCallum. Yes, sir.
    Mr. Shays. And, when you have your meetings, you're 
meeting--I'm trying to visualize--I understand and I appreciate 
that obviously the research that's going to happen is going to 
impact both foreign and domestic. It can impact the military; 
it can impact so many different folks that obviously, in that 
way, I can see why it wouldn't be under the Department of 
Homeland Security. But I'm just having a little bit of a 
difficult time trying to visualize how it works in practice.
    Do people go to the Pentagon? Do you have periodic meetings 
with each of these nine subgroups? Just walk me through that a 
little bit.
    Mr. McCallum. Actually, our offices are in Crystal Gateway 
North, just across the parking lot from the Pentagon.
    Mr. Shays. OK.
    Mr. McCallum. And we have a series of offices.
    Mr. Shays. Does that make it easier--excuse me for 
interrupting, but does that make it easier for people to access 
you?
    Mr. McCallum. It's much easier to get into our office than 
it is the Pentagon.
    Mr. Shays. OK.
    Mr. McCallum. It's right off the Metro. We host a number of 
meetings.
    As I said, we have requirements meetings during the year 
when all of the subgroup members--and there are approximately 
300 members, but if I just talk our Chemical, Biological, 
Radiological, and Nuclear Countermeasures Subgroup, the last 
subgroup meeting I sat in on had approximately 40 people from 
across the government contributing to the requirements process 
and voting up or down on different proposals.
    The discussion is on a technical basis. It's on--we also 
look at how many agencies these technologies will benefit. If 
there is a single agency it's going to benefit, we usually ask 
them to fund it out of their core budgets. If it's multiple 
agencies, because we have an interagency role, it moves up the 
line, so we talk to funding organizations and make sure that 
the highest priorities in R&D are accomplished.
    Mr. Shays. Well, how do you guarantee or feel comfortable 
about the different departments that come with their own 
perspective, that ultimately--in this process of deciding, is 
it a formal vote? Is it?
    Mr. McCallum. Yes, it is.
    Mr. Shays. How do you know that it's weighted in a way 
that's going to bring the best benefit to the United States?
    For instance, let me ask, while you think how to respond to 
me--Dr. Bolka, I would think the Department of Homeland 
Security would be in most of those different subcategories?
    Dr. Bolka. All of those that apply to homeland security.
    Mr. Shays. Chemical and biological, explosives, 
infrastructure protection, personnel protection, physical 
security, tactical operations.
    Tell me. If you don't know, would you tell me--would you 
get the answer to this question? How many people--are you so 
new that you're not yet integrated?
    Dr. Bolka. I'm sorry?
    Mr. Shays. Are you so new that you're not yet integrated in 
each of these subgroups?
    Dr. Bolka. Our DHS components have been integrated for some 
time; for example, Immigration, TSA, Border Security and so on 
have been integrated for some time.
    Mr. Shays. Right.
    Dr. Bolka. Before even DHS existed. Those relationships 
continue. Really, the only new player is the DHS Science and 
Technology, and we're in the process of becoming integrated, 
right now.
    Mr. Shays. OK, Mr. Tierney, you have the floor.
    Mr. Tierney. Thank you.
    Mr. Shays. I'll be coming around for another round.
    I did have a question to you, Mr. McCallum.
    Do you have an answer to that?
    Mr. McCallum. DHS has----
    Mr. Shays. I'm going to ask you to talk a little louder. 
Your mic seems to be a little more of a problem.
    Mr. McCallum. DHS is represented on eight of the nine 
subgroups in TSWG. The only subgroup that it's not represented 
on is Tactical Operations Support, and that's a subgroup which 
is focused on direct support for tactical military operations 
overseas.
    Mr. Shays. Thank you.
    Mr. Tierney. Thank you, Mr. Chairman.
    Dr. Bolka, let me ask you a question. The Department of 
Homeland Security, has it done a threat assessment that you're 
aware of, broad threat assessment?
    Dr. Bolka. There is no department-wide threat assessment 
that I know of, Mr. Tierney. If I'm incorrect, I'll correct 
that for the record.
    Mr. Tierney. I suspect you're not. I don't know of one 
either, and I wanted to make that point.
    So you have no threat assessment, in essence, in regard to 
homeland security issues; we have no list of priorities as to 
what our most immediate needs are.
    Dr. Bolka. In the large sense, I think you're probably 
correct.
    Mr. Tierney. So I would think that one of the ways that 
logical people might have addressed the situation was to do a 
threat assessment to determine what our priorities are, and 
then, through a network of all the people involved in this, 
going right down to the local responders, we would determine 
what technology we may need to meet some of those needs we 
don't already have. Then you might ask for proposals of people 
to meet those needs and then start going through your 
cooperation and analysis with these others.
    Does that not sound legitimate to you?
    Dr. Bolka. That sounds legitimate, and it has been done on 
a component basis by many of the components of Homeland 
Security.
    Mr. Tierney. What are you referring to as a ``component,'' 
please?
    Dr. Bolka. Border Patrol for Border and Transportation 
Security, for example, or critical infrastructure protection 
and so on.
    Mr. Tierney. So the border security people will determine 
what they think they need and have made those needs known to 
you?
    Dr. Bolka. Currently, because we're so new, a lot of the 
internal relationships have not yet been formed. In the past, 
they have worked with the TSWG, and we are establishing those 
relationships right now.
    Mr. Tierney. I guess I'm a little mystified--you know, it's 
2 years in, September 11, and we've been asking on this 
committee, Republicans and Democrats alike, for a threat 
assessment since immediately after that disaster. It made sense 
to everybody on this committees that would be the first step 
that you would do, to determine what your threats are and set a 
priority. And then I think it only stands to logic that once 
that's done, then you would try to put your resources for 
meeting those needs in order.
    If, instead, what you're telling me is that Border Security 
decides that they've got certain needs and some other component 
decides to throw it into the hopper to see what comes out, 
we're probably not handling this in a way that is going to best 
and timely serve our needs.
    Is there any effort to put some more order and more 
structure in the way we go about this with regard to homeland 
security issues?
    Dr. Bolka. Yes, there is. In the 2004 Appropriations Act, 
the appropriations bill, the Congress has stipulated that the 
research and development submission for 2005 will be a single 
submission from the Department of Homeland Security. That will 
be the impetus to bring together the parties that are already 
working together somewhat to formalize the relationships and 
provide that information and that request to the Congress.
    Mr. Tierney. And I assume what we'll do then is put out the 
bid or request for proposals, those items that are prior 
advertised as our immediate requests, and then move on down the 
line as our resources permit?
    Dr. Bolka. Yes, sir, that's what we're doing right now, 
based on a program that has been defined.
    Mr. Tierney. With a component?
    Dr. Bolka. With a component. We're addressing those first.
    Mr. Tierney. And I guess the dilemma of that is, we may 
find out by 2005, way down the food chain we should have been 
addressing a number of things with higher priority; and I guess 
that's what irritates me a little bit, because we've been 
talking about it for so long.
    Let me ask you, communications--interoperability, 
communications systems. Two years after September 11, we've had 
Mr. Cooper here, Steven, testifying that nobody was quite sure 
who had responsibility for that kind of interoperability and 
communication; that the actual function was at Mr. Ridge's 
original position at the White House. But when Mr. Ridge was 
designated as the Secretary of the Department of Homeland 
Security, he moved, but that responsibility didn't; and there's 
been some confusion, until late, as to who owns that project.
    Has your office, been dealing with any of the proposals 
that have been coming forward to determine what system would be 
used by all of our local first responders and their interaction 
with the Coast Guard and FEMA and other groups?
    Dr. Bolka. No. No, sir.
    Mr. Tierney. And why isn't that in your department? Where 
is it, if anywhere at all?
    Dr. Bolka. I don't know the answer to your question, Mr. 
Tierney. I'll find out and give you an answer.
    Mr. Tierney. Does it sound like--isn't that a component of 
homeland security?
    Dr. Bolka. I personally don't know, sir, but I----
    Mr. Tierney. Who would know?
    Dr. Bolka. Well, I'll try to find out and point you in the 
right direction.
    Mr. Shays. Would the gentleman yield?
    Mr. Tierney. Oh, sure.
    Mr. Shays. Plenty of time here?
    My understanding is, Dr. Bolka, you joined the Department 
of Homeland Security 2 months ago or how long ago?
    Dr. Bolka. Reported September 2, sir.
    Mr. Shays. September 2?
    Dr. Bolka. Yes, sir.
    Mr. Shays. So we're going to cut you a little bit of slack 
in that regard.
    Let me ask you this: Is that an indication that the office 
basically has not been up and running, and it's just starting 
to get up and running now?
    Dr. Bolka. I think with the summer BAA that was issued 
through the TSWG was the beginning of the Advanced Research 
Projects Agency office coming up and running. And as I 
mentioned, we put our second solicitation out today, and we do 
have enough professionals on board right now to handle probably 
8 or 10 development programs.
    Mr. Shays. Is there anyone else with you that is 
potentially able to answer some questions that you might not 
know an answer to, that might have been there a little bit 
longer?
    Dr. Bolka. No, sir. I didn't bring anyone else with me. If 
you can tell me what the questions are, have your staff give me 
the questions.
    Mr. Tierney. I just wanted to ask you what are the projects 
that you have out so far? What was the first one?
    Dr. Bolka. The first one was through the TSWG, which was 
rapid prototyping of chemical and biological sensors that could 
be fielded very quickly.
    Mr. Tierney. None of the other groups had ever asked for 
this before; this was something unique to homeland security?
    Dr. Bolka. It is not unique; however, it is a need that is 
there for the various components and first responders, and we 
are trying to fill some of the existing holes.
    The second solicitation was for the next generation of 
sensors, which would be cheaper, more dense, faster and give 
better situational awareness.
    Mr. Tierney. So essentially 2 years in, we have one issue, 
one priority that is being addressed?
    Dr. Bolka. Yes, sir.
    Mr. Tierney. Twice?
    Dr. Bolka. Well, actually it is not being addressed twice, 
it is being addressed once for the near term, once for the 
longer term.
    Mr. Tierney. OK. I am--certainly this is nothing personal 
with you. My frustration here is not personal at all, but with 
the reorganization, and when it was implemented, and how it was 
structured and what has been going on since. I sense some 
confusion and some lack of leadership here. But the first 
responders in my district are at a loss on a number of 
different needs that they have, and, frankly, contractors in my 
district are at a loss as to where do they go if they have a 
great idea? Do they first try and get to see whether or not 
local first responders or FEMA or the Coast Guard or somebody 
else identifies and also recognizes that need, then move up the 
chain? Do they come directly to you? But the first responders, 
and when things go from yellow to orange, there is all sorts of 
things that come into their mind as to what they need, and they 
don't have any idea where these are prioritized on the Federal 
Government's chain.
    So I look forward to working with you. Again, I am not 
going to ask you a lot of questions on that, you are so new, 
and apparently you are going to give me some information, and 
that will be helpful, but people need to know these answers. 
And whatever way we can be helpful to you in structuring this 
thing, because I think it is important to move that assessment 
forward, as we say here for the 2,000th time, that assessment 
and a prioritization and put some meaning to all of this.
    So thank you for your testimony.
    Mr. Shays. Thank you.
    I have a few more questions. One of the things that I am 
struggling a little bit with, and it is history that you are 
not really not aware of, but when we set up the Department of 
Homeland Security, we visualized, or at least I did and a 
number of others, that there were four pillars to this 
organization. And another pillar, other than science and 
technology, was information, analysis and infrastructure 
protection. That was the plug that would evaluate all 
intelligence information.
    And we had a hearing, not in this committee, but on the 
Select Committee on Homeland Security that I was on, discussing 
TTIC, which is the Terrorist Threat Integration Center--that is 
not within the Department of Homeland Security--and we are 
wrestling with understanding what its role is as it relates to 
the Department of Homeland Security.
    And, Mr. McCallum, I am still doing a little bit of 
wrestling with understanding how TSWG is not--is a valuable 
tool in which all of this information comes, but really trying 
to understand how the Department of Homeland Security is going 
to make sure it is not just one of so many players in this 
process.
    Now, one of the things I understand is that in this 2004 
budget, about 35 percent of your budget will come from the 
Department of Homeland Security. Is that somewhat what you are 
hearing?
    And, Mr. Jakub, if you care to jump in as well.
    Mr. McCallum. As I understand it, we don't know yet from 
the Department of Homeland Security what amount they anticipate 
sending to us. We would anticipate our budget at this point, 
based upon what we have heard from them, to be more in the 
neighborhood of 20 percent, but that varies. We are still in 
the formulation stage, since we have just seen the conference 
reports, but in this year's budget they were about 20 to 25 
percent.
    Mr. Shays. Now, as the Department of Homeland Security 
joins TSWG as a department, I realize that it used to have 
other elements within it that came from other departments that 
were part of TSWG, but now that we are under this new 
structure, as it joins as a department within TSWG, it is not 
clear to me whether TSWG process is best suited for what may 
become expansive homeland security technology solutions.
    Since the Department of Homeland Security is only one of 
many votes on projects to be funded through TSWG, how does DHS 
ensure that its homeland security funds are not being used to 
fund other agency priorities?
    And, Dr. Bolka, I would like all of you to respond to that.
    Mr. McCallum. Since I have my mic on, maybe I will respond 
first. First, I would like to make a correction. Based on our 
budget from last year, they are about 15 percent of our total 
from a dollar contribution in the 2003.
    Mr. Shays. No.
    Mr. McCallum. In 2004, we don't know what it is going to 
be.
    Mr. Shays. Our information says it may be up to a third, 
but it is obviously going to be more than 15.
    Mr. McCallum. One of the ways that we have attempted to 
ensure that the priority on protecting the homeland is 
recognized is by adding DHS to the executive committee. And in 
the organizational structure which you saw as displayed on my 
page 2, they are shown as a technical chair, which means that 
all of the work that we put forward from this--from the nine 
subgroups, eight of nine have senior DHS representation. Three 
of nine are chaired or cochaired by members of DHS agencies, 
such as TSA and the Secret Service.
    So they will get full membership at a voting level, they 
will get--they have a first pass cut at the first level of 
management, at the subgroup chairs. And then when we report our 
proposed program plans for the year, they also sit on our 
executive committee, so that if they feel that any areas are 
not being adequately addressed, or areas that they think are 
primary priorities and need to be addressed more strongly 
aren't being, they bring that up with our executive committee.
    So there are multiple levels and checks and balances within 
our system to ensure that, you know, a primary partner in our 
enterprise is adequately addressed. And, as Mr. Jakub said a 
few minutes ago, this is largely a matrix government 
organization that really works. Most issues are settled on the 
good of the system. And I have not seen, in the 4 years I have 
been with this organization, a homeland security-type issue 
that also wasn't a military issue and also wasn't a State 
Department issue.
    When there is a major technical priority that we can't 
cover, it is usually a gap in everyone's protection scheme. So 
I have not seen the issue of homeland security versus State 
versus DOD ever be an issue that got beyond the executive 
committee.
    Mr. Tierney. I don't want to just be one note on this, but 
let me ask Mr. Jakub and Mr. McCallum, do either of you then 
have an assessment with respect to the Department of Defense or 
the Department of State of what your particular needs are, and 
have you prioritized those?
    Mr. Jakub. Let me answer it this way: Both my office and 
Ed's office receive a variety of Intelligence Community 
assessments that deal with the terrorists threat, whether they 
be put out by TTIC or whether they be put out by CIA, by DIA, 
whatever they happen to be. There are a number of those that 
come out all of the time. We use those as guidance materials 
when we are looking at the beginning of the year, when we are 
starting to prioritize what it is that we want to do. If these 
assessments are saying that we need to be really more attentive 
to--or the information is indicating, for example, as I brought 
up in my testimony at the outset here, that terrorists groups, 
some of them now are leaning more toward chem/bio, radiological 
materials, and whatnot, that is a signal to us.
    And that is something we have to do from a management 
perspective is pick up on the intelligence signals, and then 
make sure that they are communicated to our subgroups. We do 
that at the beginning of the year. So we will take a look at 
it, and we will give our subgroups direction: We need you to 
emphasize this year CBR countermeasures for example.
    I also indicated for you that the other things that we are 
concerned about, and this is based on intel reporting, for 
example the nature of the terrorist threat that emanates from 
new explosive formulations, bombs, that type of a thing. Our 
direction to our subgroups, specifically our physical security 
subgroup that handles blast mitigation countermeasures and 
other things related to bomb squads and others, is to take a 
look at that threat in terms of developing requirements.
    So they were told right up front that we were going to 
weight potential monetary contributions in the areas of CBR and 
countermeasures, physical security, explosive detection and 
improvised devices. That doesn't mean we aren't going to give 
money to the other subgroups, but we told them right from the 
get-go as we started developing the program, these are the 
areas we need to concentrate in. Then we take a look at what 
comes up through the requirements process.
    Mr. Tierney. Can we envision a circumstance where, say, the 
Department of Homeland Security would prioritize some need of 
theirs above the things that you have given attention to, or 
that your group has decided are going to get some priority?
    Mr. Jakub. That would be something that we would like to 
take a look at in the executive committee, if DHS were to come 
in, and I think this will work itself out over time. They are 
so new. They are just now getting involved in the processes.
    If they were to come to the executive committee at--again, 
at the beginning of the fiscal year when we start this process 
and say--and we would also look at the Intelligence Community 
on this, we would like to see what the Intel Community has to 
say about a given threat--but if they were to identify a 
specific area that needed to be addressed on a priority basis, 
we could factor that in very easily.
    Mr. Tierney. But it is a situation where your group would 
have to meet and make a decision jointly, collectively I should 
say, and it could end up being in contradiction to what the 
Secretary of the Department believes ought to be given 
attention, and then we have a situation on our hands. And my 
understanding of putting this whole Department of Homeland 
Security together was that the Secretary was going to have 
ample authority to sort of take some control of a situation 
that really needed it.
    Now, I know we didn't do that with the Office of Management 
and Budget, and I think that is a terrible mistake, that if the 
Secretary decides resources have to be applied somewhere, and 
OMB overrules them, we are out of luck. And we saw that with 
Department of Energy, where the Secretary made a request of 
some magnitude, and the Department just tossed it out the 
window, and we ended up with a very small amount.
    So I hope there is going to be some way, Dr. Bolka and the 
other two gentlemen, of addressing that, other than leaving it 
as a committee decision where we are dealing with homeland 
security, and the Secretary is able to set some real direction 
there and make probably the ultimate answer as where we have to 
go with respect to homeland security, even if that means 
working outside your group.
    Dr. Bolka. That is correct, Mr. Tierney. And, in fact, the 
establishing legislation that established HSARPA provides me 
with the transaction--other transaction authority and 
contracting and legal authority to contract for ourselves if we 
have a requirement that can't be met or can't be folded into a 
joint development, or we need to modify what the product of a 
joint development is somewhat. We have the capability of doing 
that ourselves.
    Mr. Tierney. Does that mean that if you don't think they 
are moving fast enough, or putting it in a high enough 
priority, you can go outside and do it?
    Dr. Bolka. That is correct.
    Mr. Tierney. Thank you.
    Mr. Shays. TTIC was established in 1986, as you point out, 
to deal with counterterrorist--I am sorry. TSWG was established 
in 1986 to deal with counterterrorism measures, innovations; is 
that correct, Mr. Jakub?
    Mr. Jakub. Yes, sir. Read counterterrorism in the largest 
context. We look at it as counterterrorism, antiterrorism, 
support for the intelligence and security elements and also 
working consequence management. So it is a very broad term.
    Mr. Shays. Was that the same time that Mr. Bremer was--or 
not necessarily Ambassador Bremer, but when we established an 
ambassador on terrorism?
    Mr. Jakub. Yes, sir. It was right about the same time.
    Mr. Shays. What I am still wrestling with is, Mr. McCallum, 
there are so many ways that we define technology in the 
Department of Defense, and this is just one of the doors that 
you can go in.
    I am just trying to appreciate why DOD won't drown out DHS 
in its need for the protection of our homeland with 
innovations. That is kind of what I am wrestling with right 
now. What is the protection that will make that not happen?
    I will just tell you, I am getting to develop a bias. For 
instance, I think rebuilding of Iraq, and I support it 
strongly, going into Iraq, is being run by DOD when I think it 
should be run by State. But it is basically, it is--Ambassador 
Bremer is answerable to the Secretary. You are answerable to 
the Secretary.
    Make me feel more comfortable that somehow this new agency, 
with someone who has only been there 2 months or has been there 
1 month, is--his people are going to have their voice heard.
    Mr. McCallum. Mr. Chairman, the history of the TSWG shows 
that the Secret Service, the TSA, and a number of other--Coast 
Guard have for years been primary participants in the TSWG 
process and have numerous prototypes that we delivered, and not 
just that we delivered, those elements of what is now DHS help 
us develop those.
    If you remember in my opening statement, the users that 
identified requirements to us help us work through the process 
and deliver them, DOD and State have both chartered our 
organization to be an interagency forum. No single organization 
contributes all of their R&D dollars to us for fast 
prototyping, and neither DOD nor DHS nor State Department--the 
piece that they come to us with is for those parts which are 
interagency in nature and which will have broad application. 
There are always, within each organization, core 
responsibilities that they want to do in house.
    Within DHS even the most generous proposals to send money 
to this interagency body are but a small portion of their R&D 
budget. We would not anticipate attempting to do all of that. 
But in the fast prototyping world, no one is faster or more 
agile than we are.
    Mr. Shays. Just before we go to the next panel, would you 
take one of the examples that you have in your extensive 
testimony, other than one that you made reference to, tell me 
how it began, and how we capture our investment. In other 
words, we are using Federal dollars to help respond to requests 
for funds? But some of these are going to become very viable, 
and, frankly, the manufacturers should do quite well in 
producing these for the government. How do we capture back 
something?
    Mr. McCallum. I am not sure what you mean by capture back, 
Mr. Chairman.
    Mr. Shays. Our own investment, the money we pay.
    Mr. McCallum. Well, if you would like me to pick one of 
these, let me pick one that I don't believe any of the----
    Mr. Shays. And make reference to the page, please.
    Mr. McCallum. Page 12. And I also pick it because I don't 
believe that anybody here is going to demonstrate this, but it 
is the next-generation low-cost robot. A few years ago a--both 
the Department of Defense and the National Institutes of 
Justice were looking for a lower-cost robot for EOD teams 
across the community, and we started out in a requirements-
setting session to begin to build a new low-cost robot, 
something that, as the law enforcement agencies in this country 
tell us, needs to cost less than a squad car. Most robots are 
made to be very high-capability items of equipment and are 
fairly substantial in cost.
    But as we began looking at this within the IJ and the 
entire community, we discovered, though, what was available 
commercially in Canada, called the Vanguard Robot, for $35,000 
apiece, which completed about 80 percent of the requirements. 
And we went back to the committee and said these guys are ready 
to begin action right now.
    So the process wasn't one of long-term R&D, but the process 
of bringing back to the government was that we had a community 
of technicians and technical folks that knew what we needed to 
get. We had a community of users that identified what 
requirements they had to live by, what they needed, and were 
able to make some cost decisions to go and get something that 
was good enough while we completed the development.
    Mr. Shays. That is buying off the shelf, in a sense, right?
    Mr. McCallum. For the most part. We are developing the rest 
of it.
    Mr. Shays. So the only cost was your having to discover 
this and to make some decisions to purchase it.
    Mr. McCallum. Some slight upgrades.
    Mr. Shays. Some slight upgrades. But take something where--
and a firm came in, investors came in, and they said, we have 
this idea. We think it will benefit you tremendously. We need a 
sum of money to continue our research and prove to you that it 
works. Then you put in millions of dollars, or hundreds of 
thousands or whatever. They then sell it to you. How do you 
determine price? How do you know that--there--because you are 
the only purchaser. How do you work out all of those things?
    Mr. McCallum. We are most frequently, sir, not the only 
purchaser. Most of the products that we put out we attempt to 
put out on the commercial market. For most of the people that 
you will hear talk in the second panel, we identify a 
requirement. And in the second phase of those requirements, in 
the white paper, we begin to identify a commercialization or 
technology transfer process, which is one of the focuses for 
selection.
    If we can't identify how it is going to be transferred, who 
is going to build it, who is going to manufacture it, who is 
going to maintain it, and what its cost is going to be, that is 
an indication for us not to move forward. Most of our items are 
items that are either going to commercial status----
    Mr. Shays. That is even better in a sense. I am just trying 
to understand how, when you put 300,000--and I am not 
suggesting anything bad, I just want to understand it. I vote 
for our government trying to fund those innovations that will 
make sense. I just want to understand how the financial 
transactions work.
    It costs us $300,000 for the low-cost robot. Give me 
something that costs more and then walk me through it. Do we 
get our money back ever, or is it just money that is spent? I 
mean, if we help someone develop an item that can be sold at 
significant profit and so on, does the company have any 
obligation to pay for those initial investments?
    Mr. McCallum. We typically do not try to recover royalties 
for the government. Our primary objective is to get the 
equipment out in the hands of the users in the fastest and most 
cost-effective way that we can. Typically the government 
retains rights to equipment, but we do not go for royalties. 
Typically government purchases rights so that if a company is 
bought out and ceases to produce an item, or there is some 
other cost piece for that, that the government retains the 
right to go forward and manufacture it elsewhere. But our 
primary objective is to produce the equipment, not to move for 
the royalties.
    Mr. Tierney. On that same thought, then, do we do anything 
at all about keeping that technology open for others in the 
industry to use? In other words, we have funded in some cases a 
substantial amount of money for technology to be developed. We 
are not going to recoup our investment. Then do we at least 
allow this technology, maybe with some parameters, though, to 
protect the investment of the individual, but allow others in 
the industry to then build on that or use it so there is some 
competition or that others might take advantage of it, and at 
least do that with respect to the public since these are public 
funds that got these things started?
    Mr. McCallum. That is, of course, dependent. You get into 
an area where I would have to start getting my IPR attorneys 
involved. But in some cases we advertise for licensing so that 
companies can bid with the initial developer on manufacturing, 
but that is on a case-by-case basis. We encourage companies to 
team to get those kinds of things done.
    And we don't typically find that these kinds of things are 
closed. But many of the companies, you can probably address 
that better with the next panel, have IPR rights and have 
proprietary data involved with these developments.
    Mr. Tierney. Thank you.
    Mr. Shays. Just before we go to the next panel, I am still 
wrestling with the simple concept here. Do you, Dr. Bolka, feel 
that you have a mandate to do some of what TSWG does 
internally? In other words, do you believe that you need to set 
up an operation where people can go directly to you for 
funding, or is all of the funding that is going to be out of 
the Department of Homeland Security going to go through this 
funnel of TSWG?
    Dr. Bolka. As I said in my testimony, Mr. Chairman, this 
fiscal year, this coming fiscal year, the Congress has 
stipulated that $75 million we spend on rapid prototyping. My 
total budget this year in HSARPA will probably be around $350 
million.
    Your question was do I have a mandate to do rapid 
prototyping other than through TSWG? I believe I have the 
capability to do it. Depending on the interagency and 
interdepartmental nature of the requirements, it may be that 
working through TSWG is the best way to do it.
    If it is something that is unique to one of the DHS 
components, then I can do it myself, because I have contracting 
officers and legal personnel, and we can let contracts. So for 
the rest of my budget, I am establishing a contracting 
capability, the appropriate legal support is made available, 
and, as I said, the other administrative support is available 
to me as well.
    Mr. Shays. Mr. Jakub, just walk me through this as I try to 
sort this out. Should DHS have the capability to basically 
duplicate what TSWG does and do it internally and not have to 
go through TSWG?
    Mr. Jakub. Let me answer it this way. There are a lot of 
departments and agencies that are in the TSWG. Many of them 
have their own budgets for research and development. The FBI, 
the Agency, the Department of Agriculture, whatever.
    What we offer in TSWG are another avenue. There may be a 
requirement they have that they don't really know how to work. 
They can come to TSWG with that. They may have a requirement 
that is going to be useful for more than just one agency, and 
they can't afford to develop it themselves. They can bring it 
to TSWG. If that fits with the requirements we have, we may be 
able to partner with them and leverage moneys. We don't 
duplicate what individual agencies do, so we aren't taking 
anybody else's money to do this. What we have is a program.
    Mr. Shays. Say that again. That doesn't make sense to me. I 
don't know what you mean, you don't duplicate. Go on.
    Mr. Jakub. Agencies that have their own R&D budgets can 
fund R&D within their own agencies.
    Mr. Shays. Right. So you are not going to do the same 
project in both places? Is that what you mean?
    Mr. Jakub. That is one of the things we would make sure 
didn't happen.
    Mr. Shays. Right. It is almost like if you don't get it 
through TSWG, you can go directly to the Department. And maybe 
that is good or bad, I don't know, but it is--I am just really 
trying to understand how this new agency, the Department of 
Homeland Security, kind of fits in. And I realize, Mr. 
McCallum, that this--it used to be an old agency in the fact 
that you had members and do have members who were there well 
before we had a Department of Homeland Security, we just 
collected under the Department of Homeland Security.
    But I can make an argument that you should put TSWG under 
the Department of Homeland Security. I could just make an 
argument that could or should happen. Just tell me what would 
be the pros and cons of it.
    Mr. McCallum. The primary con, sir, is that the military 
warfighting effort in the offensive side of that, the 
intelligence support that we do, and the support for the 
Department of State would be lost.
    The defensive component is a subset. The kinds of things 
that DHS is doing to protect the Nation are of primary 
importance, but it is a subset of the total combating terrorism 
technology development effort. We can do both, because the 
technologies that are developed are appropriate for both.
    Mr. Shays. Theoretically if a company came to be funded, 
and TSWG said no, could they theoretically go to--and, Mr. 
Jakub, I would like you to respond as well--could they 
theoretically go to the Department of Homeland Security or the 
Agriculture Department, depending on what area it was, and 
submit that application hoping the Department will do it 
directly?
    Mr. Jakub. It is possible.
    Dr. Bolka. Yes, sir. In fact, in DHS we have established an 
e-mail address that we use to solicit--well, that we use to 
collect unsolicited proposals. It is 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c7f6f6569626f692278696f64626360636b754c68647f226b637a22">[email&#160;protected]</a>
    Each one of those unsolicited proposals is examined, it is 
compared against requirements, it is circulated through the 
Department to see if there is any interest, and a response is 
sent back to the individual. We treat those proposals very, 
very seriously. Some of them are frivolous. Many of them are 
not.
    So we do have the opportunity, within the components of the 
Department and within science and technology, to collect and 
process unsolicited proposals and also to solicit proposals for 
requirements that are either unique to a component or unique to 
DHS.
    Mr. Shays. When we debated, and when I was sold on having 
the Department of Homeland Security, one of the arguments, and 
one of the pillars, was your pillar, your directorate, that 
basically we said this is one place to assess technology for 
counterterrorism to protect our homeland, and what I am getting 
a feeling is that TSWG is one place, and probably the primary 
place, but then we can still go to all of the different 
departments and agencies to get funding as well. That is kind 
of what I am left feeling. Is that the way I should feel? Dr. 
Bolka.
    Dr. Bolka. Not as far as DHS goes, sir, because the intent 
of the Congress and the intent of the Department is to grow the 
Department of Science and--or the Directorate of Science and 
Technology to perform exactly that function.
    Mr. Shays. That is what I thought. That is how I started 
this hearing.
    How do you react to that, Mr. McCallum?
    Mr. McCallum. I would react by looking within the working 
groups as I have seen them operate. Industry or academia, both 
United States and foreign, do bid on requirements that go out. 
They bid not only to different agencies, but within agencies 
for people who are looking for the kinds of products that they 
are selling. But as I have sat through some of these subgroup 
meetings and observed, frequently a proposal will come in that 
the Coast Guard or the Navy or the New York Police Department 
will say, we looked at that. Here is what we thought about it: 
We didn't fund it.
    We also have people step up and say, hey, we are already 
funding that proposal. We have already committed funds to it. 
Don't move down that lane.
    We not only choose things to fund, we choose things not to 
fund. An example from a few years ago was one where the 
Department of Energy that had been doing research in both 
physical security largely at Sandia National Laboratory and 
explosive detection at some of the other weapons labs brokered 
through TSWG, made a deal with the FAA, that the FAA, because 
of their funding, was going to fund primarily the explosives 
detection, and DOE was going to fund physical security so that 
we wouldn't have a duplication, and we would have a more 
cohesive Federal effort at both physical security and 
explosives detection.
    Mr. Shays. Before Mr. Tierney asks questions, if I had an 
innovative idea from the private sector, would I go to TSWG 
first if it impacts the Department of Homeland Security, or 
would I go to the Department of Homeland Security? Would I go 
first to the Department of Homeland Security, get it; if I 
don't get it, go to you to have you reconsider; or would I do 
it in reverse?
    Mr. McCallum. We respond to specific requirements. When our 
sessions sit down and look, we define specific requirements 
that we are looking for. The DHS broad agency announcement that 
we just published for them had 51 defined requirements, and 
they would respond to those requirements. It is just not a--a 
come one, come all. We advertise for specific user-defined 
requirements for technology.
    Mr. Shays. But what about the person that has thought of 
the idea that you haven't thought of asking, but it is 
brilliant? I mean, let me make the point. I had a homemaker who 
was a scientist, but now at home, and she came up with an 
extraordinary idea in terms of collecting data while she was 
doing stuff at home, and nobody asked her for this idea. The 
creativity of the American citizen was at work. Where would she 
go? Would she go to you first, or would she go to the 
Department of Homeland Security? That is really the question I 
am asking.
    Mr. McCallum. I suspect she can go wherever she wants. We 
do take unsolicited proposals. We pull boards together and 
examine them. Frequently in the last year or year and a half, 
we have taken those kinds of proposals from the Office of 
Homeland Security, when Governor Ridge was operating out of the 
White House, and more recently from the Department of Homeland 
Security, and staffed those around the Federal Government when 
they didn't meet one of our technology requirements where we 
knew that other agencies were looking for those kinds of 
issues, or if they weren't, that they might be interested in 
them because they looked attractive to us. So we staff those 
out and send those to people who we call sponsors and who might 
have the money or the interest to fund those kinds of things.
    Dr. Bolka. Our unsolicited proposals go through much the 
same process. We look at the idea. We look at our needs in DHS. 
We have representatives on the working groups in TSWG, and we 
also have the executive committee membership in TSWG.
    So an unsolicited proposal that comes to us can go through 
exactly the same process that it would have gone had it gone to 
Mr. McCallum's organization.
    Mr. Shays. Thank you.
    Mr. Tierney.
    Mr. Tierney. Thank you.
    Dr. Bolka, let me ask you this: You have two ongoing 
projects that you have in TSWG right now, and I assume that all 
of your components may well be using parts of your research and 
development budget, or your research and development budget may 
be being used to support some concepts some of your components 
want researched.
    Do you have an inventory of what is being done outside of 
TSWG right now within any of the agencies or components under 
your body?
    Dr. Bolka. In the area of chemical/biological, 
radiological, nuclear and explosives, we do have a pretty good 
list of what is going on in the user agencies, yes, sir.
    Mr. Tierney. Might you make that available to the committee 
for our review?
    Dr. Bolka. Yes, sir.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.035
    
    [GRAPHIC] [TIFF OMITTED] T2393.036
    
    Mr. Tierney. Are there areas where there may be things 
going on where you don't believe that you have a handle on it 
yet?
    Dr. Bolka. I am sure that there are things going on that I 
don't know about yet.
    Mr. Tierney. In terms of research and development?
    Dr. Bolka. Yes, sir.
    Mr. Tierney. Really. That is interesting. As you find out 
those things that might be interesting for us to know, too, and 
when you think that you have a grip on it and got a little bit 
of control in determining what that is, we would like to know 
when that point arrives, or at least you might give us an 
estimate now of when you think that point will be, and then let 
us know when it arrives.
    My concern is that we didn't give the Secretary the kind of 
authority that I think would really make this kind of thing 
work. I mentioned that earlier in terms of the budget. And I 
want to make sure that homeland security, some central 
individual or aspect here is determining what our needs are, 
setting a priority, and then making darn sure that they are 
being addressed.
    And I don't have a problem with them being addressed 
through TSWG, if that is the best way to go, and everybody 
sharing sort of a sweeping idea of knocking out the stuff that 
has already been filed somewhere else so it is not duplicated 
or whatever. But I do want to make sure that we are working in 
a sense that when we think something is important for homeland 
security, it gets done and doesn't have to get in line and 
queue up with other concepts on that.
    So if you would do that, I would appreciate that.
    Dr. Bolka. Yes, sir. I don't have a timetable for you right 
now, but I will work with committee staff to establish one and 
to submit the report.
    Mr. Tierney. Thank you. Thank all of you gentlemen.
    Mr. Shays. Let me just invite each of you to make any 
comment that you think we should have responded to, any 
question you think we should have asked, or to make any comment 
before we go to the next panel. But, before you do, let me just 
acknowledge, I know, Dr. Bolka, you are new here, but you have 
a distinguished career, so you bring tremendous expertise. I 
didn't mean to imply that being new didn't mean that you don't 
bring something significant to the table. I want to be fair to 
you in the sense this is a new effort, and you are trying to 
get things under control.
    And, Mr. Jakub and Mr. McCallum, I know that you have--you 
work significant hours in this effort, and you have had 
tremendous successes.
    We are just trying to sort out what we have done in the 
last few years and understand how it works. So we thank all 
three of you for your service to our country, very sincerely. 
And do you have any final comments that you wish to make?
    Mr. Jakub. Yes. If I could add one. We didn't talk about 
really the foreign aspect, the international aspect of the TSWG 
program. We have been able, through those contacts with our 
current three partners, to develop a lot of technology which is 
not only useful to us for our counterterrorism efforts, whether 
they be domestic or whether they be what we are using overseas, 
and those countries as well. It permits us to leverage a lot of 
these resources we talked about and also to access their 
technology bases.
    So when you ask about the value of the program, in looking 
at it we tend to look at it as not homeland security on the one 
hand and rest of the world on the other. Technology is 
technology. We can use it here, we can use it abroad, we can 
use it with our friends. And the value we get out of leveraging 
all of these resources has been invaluable for the U.S. 
Government as well as for our foreign partners in this war on 
terrorism.
    Mr. Shays. This committee, in response to that, had an 
extraordinary opportunity to see some of the technology that 
the Israelis had in terms of--without going into much detail--
of how they would--those who had been captured, how they would 
find a way to save captured folks in Israel, and how they would 
confront the terrorists who held them. And the technology that 
they had was so simple, and yet so brilliant. I am delighted 
that you responded to this area because it is very important 
that there be that dialog. And it raises the point, Dr. Bolka, 
that the Department of Homeland Security, while it is domestic, 
we will learn tremendously from our international----
    Mr. Jakub. Yes. And, in point of fact, sir, we are opening 
those doors for the Department of Homeland Security with our 
existing three partners using our existing program, and we are 
looking at possibly expanding with a couple of other foreign 
partners. We will also make that same offer to DHS. It is an 
example of how, I think, our program has helped DHS get up and 
running and will help them in the future.
    Mr. Shays. Well, my staff is happy about this stuff, 
because they wanted me to ask you about the international side. 
So thank you.
    Do you have any other comment, Mr. McCallum?
    Mr. McCallum. I would probably just like to close by 
pointing out that what we like, both State and Defense like to 
see this as a collaborative process. It is not one in which we 
are insisting that agencies come to the table or that they send 
money. It is a forum by which the larger agencies, I think, 
have found that they can collaborate and ensure that they know 
what is happening in other agencies, and indeed sometimes 
within their own agencies because of the breadth and scope of 
this program.
    Mr. Shays. Thank you.
    Dr. Bolka.
    Dr. Bolka. Well, as you said, Mr. Chairman, I am relatively 
new in the organization, but I would like to thank the 
committee and the Congress for the support and the confidence 
that was expressed in our fiscal year 2004 S&T budget. We will 
do our best to execute it wisely.
    Mr. Shays. I am sure you will. Thank you gentlemen.
    Our final, and our second panel, is Dr. Gordhan Patel, 
president, JP Laboratories, Middlesex, NJ; Mr. Jack Sawicki, 
director of business development, GEOMET Technologies, 
Germantown, MD; Mr. Lee F. Sword, program manager, Military 
Systems Division, IRobot Corp., Burlington, MA. Our fourth 
panelist is Mr. Richard Mastronardi, vice president of product 
management, American Science and Engineering, Inc., Billerica, 
MA. And our next panelist is Mr. Bruce deGrazia, chairman, 
Homeland Security Industries Association, Washington, DC. We 
have Mr. Kenneth P. Ducey, president, Markland Technologies, 
Inc., Ridgefield, CT, and for the record, he is first among 
equals among this panel; and finally, Mr. Laurence D. Bory, 
vice president, Federal Government Relations, HDR, Inc.
    And so what we will do is we will ask you all to stand. If 
you would stand, and I will swear you in. Thank you.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that our witnesses have 
responded in the affirmative.
    Thank you for your patience as we had the first panel. But 
Dr. Patel is the first, and Mr. Sawicki, and Mr. Sword is 
third, Mr. Mastronardi is fourth in this. OK.
    Now, let me just say to you, you have prepared comments. 
Given that we have seven of you, it would be helpful if you 
would stay closer to the 5 minutes. But don't read fast. I 
would prefer you to leave something out; if you choose to, you 
may. Frankly, you don't need to read. You would probably do a 
better job just describing some points you want us to know. It 
would be helpful if you responded to some of the issues that 
came up from the first panel, and so it may be that you would 
like to submit your testimony for the record and just speak 
extemporaneously.
    So we are going to start as you are lined up. That is how 
we are going to do it. So, Dr. Patel, thank you very much for 
being here.

   STATEMENTS OF GORDHAN PATEL, PRESIDENT, JP LABORATORIES, 
MIDDLESEX, NJ; JACK SAWICKI, DIRECTOR OF BUSINESS DEVELOPMENT, 
GEOMET TECHNOLOGIES, LLC, GERMANTOWN, MD; LEE F. SWORD, PROGRAM 
 MANAGER, MILITARY SYSTEMS DIVISION, IROBOT CORP., BURLINGTON, 
MA; RICHARD MASTRONARDI, VICE PRESIDENT OF PRODUCT MANAGEMENT, 
 AMERICAN SCIENCE AND ENGINEERING, INC., BILLERICA, MA; BRUCE 
 DEGRAZIA, CHAIRMAN, HOMELAND SECURITY INDUSTRIES ASSOCIATION, 
     WASHINGTON, DC; KENNETH P. DUCEY, PRESIDENT, MARKLAND 
TECHNOLOGIES, INC., RIDGEFIELD, CT; AND LAURENCE D. BORY, VICE 
PRESIDENT, FEDERAL GOVERNMENT RELATIONS, HDR, INC., ORLANDO, FL

    Dr. Patel. Mr. Chairman, members of the committee, thank 
you for inviting me to testify about counterterrorism 
technology, especially the product we have developed. JP 
Laboratories developed a credit-card-sized low-cost radiation 
dosimeter, as I have in my hand, and I have provided samples to 
you, both irradiated and unirradiated samples. The dosimeter 
can be used to monitor levels of radiation exposure in an event 
of radiological attack by terrorists.
    It is widely believed that terrorists have a new weapon 
called a dirty bomb. A dirty bomb is an ordinary explosive 
packed with a radioactive material. When detonated, it will 
spread radioactive dust.
    High doses of radiation such as x-ray emitted by the 
radioactive dust can cause cancer and even death. A dirty bomb 
could cause widespread panic, massive disruption, and rendering 
the surrounding area uninhabitable for years.
    In the event of a detonation of a dirty bomb, it is 
imperative that people affected by the dirty bomb and the first 
responders need to quickly assess the radiation exposure. The 
people affected by a dirty bomb will know their radiation 
exposure and will not panic, and the concern will be minimized. 
If they have a wearable inexpensive radiation dosimeter, they 
will know their radiation exposure.
    If they are not exposed to radiation or receive a very low 
dose, they will not need to worry and would not need to rush to 
the hospital. However, those who have received a high dose may 
go to a hospital, and physicians would know whom to treat 
first.
    In order to determine radiation exposure, hospitals will 
need to obtain blood samples from every potential victim. That 
will be practically impossible to do with so many people 
affected by a dirty bomb. Panic among the people and the 
concern can be minimized if they have a wearable, easy-to-read 
personal radiation dosimeter.
    JP Labs has developed a credit-card-sized radiation 
dosimeter, we call it SIRAD for Self-Indicating Instant 
Radiation Alert Dosimeter, which can be used to monitor high-
energy radiation released in an event of a dirty bomb attack. 
When exposed to radiation from a dirty bomb or nuclear 
detonation, the sensing strip, which is in the center of this 
bagge, when exposed to radiation from the dirty bomb, or 
nuclear detonation--the sensing strip of SIRAD develops blue 
color instantly, and the color intensifies with the dose, 
providing the wearer and medical personnel instantaneous 
information of the victim's exposure to radiation.
    The dosage is estimated by matching the color of the 
sensing strips with the color reference chart and the number 
printed on the side of the sensing strip. It can take days to 
get such information by other methods currently available.
    SIRAD is inexpensive, will cost less than about $10. JP 
Labs has developed several products with Federal funding. The 
development of SIRAD was funded by the Department of Defense 
from 1997 to 1999, and by Technical Support Working Group 
[TSWG]. TSWG recognized SIRAD's significance to the first 
responder and has proceeded to make them aware of the 
dosimeter's availability.
    TSWG has selected our second proposal for funding to go to 
what we call a smarter dosimeter, in which we are eliminating 
the color reference chart, and the number will be read 
automatically, and if there is any false positive, it will be 
indicated.
    A week ago I had an opportunity to meet with many first 
responders at the Technology for Public Safety in Critical 
Incident Response Conference organized by the National 
Institution of Justice in St. Louis, MO. TSWG has helped many 
organizations put a number of products and processes into the 
hands of the first responders to fight terrorism. We believe 
that TSWG can do an even better job if it becomes an 
independent agency or with a larger budget.
    I will be happy to answer your questions.
    Mr. Shays. Thank you very much, Doctor.
    [The prepared statement of Dr. Patel follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.037
    
    [GRAPHIC] [TIFF OMITTED] T2393.038
    
    [GRAPHIC] [TIFF OMITTED] T2393.039
    
    [GRAPHIC] [TIFF OMITTED] T2393.040
    
    [GRAPHIC] [TIFF OMITTED] T2393.041
    
    [GRAPHIC] [TIFF OMITTED] T2393.042
    
    [GRAPHIC] [TIFF OMITTED] T2393.043
    
    [GRAPHIC] [TIFF OMITTED] T2393.044
    
    [GRAPHIC] [TIFF OMITTED] T2393.045
    
    [GRAPHIC] [TIFF OMITTED] T2393.046
    
    [GRAPHIC] [TIFF OMITTED] T2393.047
    
    [GRAPHIC] [TIFF OMITTED] T2393.048
    
    [GRAPHIC] [TIFF OMITTED] T2393.049
    
    [GRAPHIC] [TIFF OMITTED] T2393.050
    
    [GRAPHIC] [TIFF OMITTED] T2393.051
    
    [GRAPHIC] [TIFF OMITTED] T2393.052
    
    Mr. Shays. During the course of your testimony, you may 
want to tell us whether this was something that the government 
ideally is using, or whether it is going to go on the open 
market. I am not going to you ask to respond now, Dr. Patel, 
but if you can incorporate in your statements, it would be 
helpful if you can.
    Mr. Sawicki. Good afternoon. My name is Jack Sawicki. It is 
an honor to be invited to testify before you today on our 
experience with the Technical Support Working Group, or TSWG.
    I am director of business development for GEOMET 
Technologies, a division of Versar Corp., a small business 
headquartered in Springfield, VA. We have been in the business 
of response, testing, research and development with chemical 
and biological agents and other hazardous materials for over 30 
years. I also live in Arlington, VA, where I am a member of the 
Cherry Hill Volunteer Fire Department and represented Arlington 
from 1999 until September 2001 on the Department of Defense/
Department of Justice interagency group for counterterrorism.
    GEOMET was first awarded our first TSWG contract to develop 
these personal protective ensembles for first responders and 
medical personnel. DTAPEs, Disposal Toxic Agent Protective 
Ensembles, and I have two here today, were designed to provide 
protection from chemical, biological, and radiological 
materials of terrorist or industrial origin, and these were 
actually submitted, to answer your question, sir, to a very 
general requirement that came out, and were specifically 
targeted to these users.
    One of the requirements that we had in the negotiations was 
the proper integration of protective suits with boots, gloves 
and respirators, without the use of inherently unreliable field 
expedient measures, such as duct tape. And one of the comments 
I would like to make to Mr. Tierney, that that specific 
requirement was given us in a meeting with Massachusetts 
General Hospital, when we had the users in the emergency room 
at one of earlier demonstrations there. They said, we don't 
have time to be fooling around with tape and things like that 
when we actually have an emergency.
    We developed four systems, two for firefighters and HAZMAT 
teams that typically use self-contained breathing apparatus, 
one for emergency medical service personnel that you would 
normally see on ambulances or on other types of response 
equipment, and one for hospital emergency personnel. The EMS 
and hospital resulted in the ones we have today, the hospital 
personnel, and the green one for the first responders. Those 
items are currently offered for sale by our firm with several 
subcontractors, including the DuPont Co. and Global Secure, 
Onguard and North Safety Co.
    One barrier we have encountered in the marketplace that 
tries--to show you some of the problems, I guess, we see with 
the process is that many users are still accepting cheap or 
what I call duct tape fixes in purchasing all kinds of 
equipment with Federal funds, even though they do not meet 
applicable safety standards, such as those from the National 
Fire Protection Association that have actually been endorsed by 
the interagency board. I would suggest that Congress in the 
future might do some work in that area, to try to make sure 
that equipment that first responders do get does meet these 
minimum standards.
    Another contract that GEOMET has had with TSWG was the 
Rapid Contaminated Carcass and Plant Disposal System--if I 
could have that third picture--which was funded by the U.S. 
Department of Agriculture. The charge in this program was to 
design a portable system that could be distributed to each 
State, probably to the veterinary colleges, and could be 
rapidly trucked to outbreak sites throughout the United States. 
The incinerators must safely burn plant or animal materials 
that were contaminated with biological agents such as anthrax, 
hoof and mouth, etc. Currently the state-of-the-art for 
disposal of such material is open burning or burial, neither of 
which are completely effective.
    One requirement with the system had to--that the system had 
to automatically accept entire longhorn steers, which weigh up 
to about 2,000 pounds, tree trunks, truckloads of chickens, 
etc., at a minimum rate of 120,000 pounds per day, without 
putting out any pollution. To do this, if you are into 
technology, our guys went crazy with this. We had a grinder 
with an 80,000-pound blade, which was required to take these 
longhorn steers. It is quite a neat design. Unfortunately, the 
design phase was successfully completed; the project was 
canceled due to lack of funding.
    Again, if you can see the picture up there, the material is 
dumped into the front end, and basically everything 
automatically comes out the back end as smoke and ash.
    And the veterinarians at USDA that were over in the UK 
burning the carcases from the hoof and mouth disease over there 
were the big proponents of that effort. They really felt that 
there was a lot of contamination spread from just open burning.
    I might add in Virginia where I live, a lot of chicken 
feathers ended up in people's swimming pools and houses miles 
away from this last incident that we had where they burned 
something like a million chickens. They had open burial pits in 
the Shenandoah Valley.
    In 2002, we were awarded another TSWG contract to develop a 
heat stress calculator, which was given earlier, and we got 
into this as our firm has personal experience to the history of 
performing environmental remediation. And we did the 
disinfection of GSA Building 401, which processes the mail for 
the executive branch, and we also handled part of the cleanup 
of the Soviet Union biological weapons dump site in Uzbekistan, 
where the temperatures were around 100 degrees in both cases. 
Again, the heat stress calculator allowed workers to determine 
how long they can safely operate in personal protective 
equipment. And I might add, our subcontractor on that was the 
former Director of the U.S. Army Research Institution of 
Environmental Medicine up in Massachusetts.
    Our experience with TSWG has been generally good. We have 
one suggestion for improving the process. The one-page quad 
chart format in some cases did not allow sufficient space to 
provide enough information for evaluation, in our opinion. And 
we suggest that firms be allowed to provide a two-page mini 
white paper at the same time they put in the quad chart. If the 
reviewers were to see a quad chart that interests them but have 
questions about the proposal, the two-page white paper could be 
consulted for additional information. And we believe that there 
may be some proposals that have not been funded as reviewers 
were not able to fully understand the concept based on the 
small, small picture.
    Mr. Shays. Thank you very much, sir.
    [The prepared statement of Mr. Sawicki follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.053
    
    [GRAPHIC] [TIFF OMITTED] T2393.054
    
    [GRAPHIC] [TIFF OMITTED] T2393.055
    
    [GRAPHIC] [TIFF OMITTED] T2393.056
    
    [GRAPHIC] [TIFF OMITTED] T2393.057
    
    Mr. Shays. Mr. Sword.
    Mr. Sword. Thank you, Mr. Chairman.
    Mr. Shays. You know, we do not allow people who testify 
before us to play with toys, sir. Last week, I had someone who 
was eating at the table, so this is getting a little strange 
here. Tell us about it. I am sorry. We will start your clock 
over again here.
    Mr. Sword. Thank you, Mr. Chairman, and members of this 
distinguished subcommittee for the honor to testify on my 
company's experience with and opinions of the technical support 
working group process. I Robot Corp. is a young entrepreneurial 
company in Burlington, MA. While we are a small business, we 
are the largest supplier of mobile robots, and recognized as a 
technological leader in our field. My name is Lee Sword, and I 
am a program manager in the military systems division of i 
Robot. I lead the five TSWG funded projects that are 
investigating technologies for the next generation of explosive 
ordinance disposal tools. My remarks today will include i 
Robot's experiences with the TSWG process, a brief capitalistic 
view of my project's target market, and conclude with my 
opinion related to a potential improvement in the process.
    I Robot is in the business to bring robotic technology into 
the mainstream through defense and commercial channels. Our 
team of 76 dedicated engineers have worked on robotics systems 
that ventured miles into the Earth, journeyed to other planets, 
revealed insights into civilizations that no longer exist, and 
have improved the situational awareness of our troops in 
combat. We have submitted a total of 34 responses to four 
different broad agency announcements from TSWG. Solicitations 
to which we responded span the spectrum from the narrow focus 
of requesting a next generation of explosive ordinance disposal 
robotic tools to the more general request for technology to 
combat terrorism.
    In each case, we believe that the solicitations were posted 
with appropriate technical detail, clear instructions with 
regard to how to properly respond, and provided reasonable 
timeframes for the responses to be generated. Noteworthy is the 
fact that none of the solicitations initially requested full 
proposals but instead asked for either white papers or single 
page quad charts. Five of i Robot's 34 responses to TSWG 
generated requests for full proposals, and all five have 
resulted in contracts to develop proof of concept prototypes.
    TSWG and i Robot share some common visions for the future 
of robotics. We share the opinion that in order to be useful, 
advanced technologies must be developed with the end users' 
needs in mind. Without clear objectives and measurable success 
criteria, scientists and engineers will tend to create really 
cool but useless technology.
    The benefit of modular designs is another shared vision 
that has already served our company well. The robot presented 
at this hearing was configured as an explosive ordinance 
disposal robot, yet shares the same base chassis as those 
currently in use by our forces in Afghanistan and Iraq.
    Our robots deployed overseas have a scout payload installed 
where the EOD arm is on this robot.
    The need for interoperability is a third area of shared 
vision. TSWG is defining a common architecture for robots, 
payloads, and control units that will allow compliant equipment 
for multiple vendors to seamlessly integrate into useful 
systems. We at i Robot endorse this approach, and are working 
with TSWG to refine and mature the concept so true plug and 
play capability can be delivered to the end user.
    The end users for the next generation tools being developed 
are local, State, and federally supported bomb squads. Given 
the total number of active bomb squads in existence, there is 
very little financial incentive for private industry to invest 
large sums of money in break-through technologies. The past two 
decades have seen only small evolutionary changes to existing 
equipment, but the recent infusion of money from TSWG is 
causing revolutionary changes in the capability and utility of 
EOD equipment that otherwise may have taken many years to incur 
on its own. I Robot's experience with the TSWG process was and 
continues to be a positive one. The entire process from release 
of the broad agency announcement to issuance of development 
contracts is handled in a professional manner by experienced 
individuals that obviously have a good grasp of the end users' 
needs with an understanding of the limitations of the available 
equipment. My one recommendation for improvement in the TSWG 
process would involve implementing some mechanism for quickly 
increasing staffing levels to address unanticipated workloads. 
I'm specifically addressing the overload experience following 
the release of the homeland defense broad agency announcement 
where a total of 12,500 responses were received.
    Thank you, Mr. Chairman. This concludes my statements.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Sword follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.058
    
    [GRAPHIC] [TIFF OMITTED] T2393.059
    
    [GRAPHIC] [TIFF OMITTED] T2393.060
    
    [GRAPHIC] [TIFF OMITTED] T2393.061
    
    [GRAPHIC] [TIFF OMITTED] T2393.062
    
    [GRAPHIC] [TIFF OMITTED] T2393.063
    
    Mr. Shays. Mr. Tierney just pointed out that you live in 
his district. Is this correct?
    Mr. Sword. Yes, sir.
    Mr. Shays. Terrific. But you are still, Mr. Ducey, first 
among equals here.
    Mr. Mastronardi. Yes. Mr. Chairman and members of the 
committee, on behalf of American Science and Engineering, AS&E, 
I would like to thank you for the opportunity to talk to you 
today about our relationship with TSWG, and where I think it 
has been beneficial both to our company and to the Nation.
    We have a relationship with TSWG that goes back to as far 
as 1998, from what I can determine.
    Since the tragedy of September 11th, the role of TSWG has 
become more important than ever. I believe that the mandate 
that they have to identify appropriate technologies and 
facilitate the rapid prototyping of these technologies is 
extremely vital. Our company has been in business since 1958, 
and we have pioneered a lot of work in detection and advancing 
the fields of x-ray astronomy, medical imaging, non-destructive 
testing, and, more importantly today, security screening. 
Anyone in this room has passed through a security checkpoint in 
this building that uses AS&E equipment. If you had an object x-
rayed today, it was with our equipment. The same would be true 
of pretty much every government building in Washington, DC. Our 
equipment is used every day throughout the world to inspect a 
broad range of items; these range from pocketbooks of people 
entering the White House to deliver goods at Andrews Air Force 
base to cargo containers that are entering the port of Hong 
Kong.
    For our company, it's a constant challenge to keep up with 
the terrorists who are perfecting methods to circumvent 
security measures every day. And I believe this is where TSWG 
comes into the picture. TSWG can support this effort by 
speeding up the time to market of many new technologies, and 
most recently TSWG has agreed to help us develop and test a new 
product called the Z Backscatter Van [ZBV]. I have enclosed a 
couple figures in the testimony that might be helpful.
    This single-sided x-ray product uses our patented Z 
Backscatter technology to identify hidden contraband. It's 
built into a small, maneuverable delivery-type van that allows 
the user to both covertly or overtly look into vehicles and 
cargo containers. It can easily identify explosives, weapons, 
and in some cases, can be used to effectively look under 
people's clothing to find suicide bombs.
    We have an additional capability that we offer on this 
product called Radioactive Threat Detection. This can identify 
the radioactive materials that are often associated with dirty 
bombs; they are typically gamma emitters. There is also a 
capability to detect neutron emitters that are often the 
materials that are used to make nuclear weapons.
    Recognizing the potential of this product, ZBV, TSWG has 
agreed to help us develop additional capabilities. These 
capabilities include the ability to operate in remote and quite 
challenging hostile environments such as that in Iraq. What 
they are going to help us develop is remote operation 
capability. This will allow us to operate the equipment in a 
covert manner and to keep our soldiers and personnel 
sufficiently distant from the process so that, if any explosion 
occurs, they will not get blown up.
    We find that TSWG has very accessible and user friendly Web 
site, and it is often the starting point of any project like 
ours. This project, by the way, was in response to a broad 
agency announcement. It has broad appeal, but the near-term 
deployment and where TSWG is providing focus is in the high-
threat regions.
    As a member of the TSWG Web site, we are kept aware of the 
opportunities through the broad agency announcements. Our first 
submittal, like everybody's, is a quad chart. We provide a 
concept drawing of the idea, a description of how it would meet 
an operational capability that's been asked for, and it gives 
TSWG a rough order of magnitude of cost, schedule, and 
deliverables. This one-page document responds to--is supposed 
to be responded to in as little at 45 days and sometimes takes 
longer, several months. I think everybody else has described 
the next step, which is a white paper, which also takes some 
time, and a proposal. We understand that TSWG often has 
something in excess of 12,000 quad charts, and it's pretty 
daunting, to say the least. We believe that TSWG does an 
effective job of processing the high volume of interest, but I 
think as most companies will tell you, we wish the process 
could be faster.
    Often, large amounts of time can transpire between various 
stages of the proposal process. In our case, this project has 
taken over a year from quad chart to contract.
    TSWG has taken a number of initiatives to host meetings to 
discuss the upcoming projects and to educate companies how to 
be more effective in the proposal process. This is certainly 
one example of how TSWG is trying to speed up the process. In 
addition to speeding up the process, we have two 
recommendations that could be addressed by TSWG in order to 
make their process more effective. First, we believe that more 
detailed feedback on why quad charts or white papers are 
rejected would be helpful to submitters. Submitters would be 
better prepared for the next time.
    Second, there appears to be a preference for funding a lot 
of the small projects and very few larger projects, and we 
believe the emphasis should be on the right technology to meet 
the demand of the requirements proposed by the operating 
organizations.
    From our vantage point, we find the relationship with TSWG 
very beneficial to both parties. The people appear to be quite 
competent technically; they're dedicated, hard-working, and we 
also believe they are extremely busy and juggle multiple 
projects. Many of the issues that we feel are important today 
could be mitigated by additional staff. TSWG serves a vital 
role in helping companies like ours develop new technologies, 
and we are looking forward to our new project.
    [The prepared statement of Mr. Mastronardi follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.064
    
    [GRAPHIC] [TIFF OMITTED] T2393.065
    
    [GRAPHIC] [TIFF OMITTED] T2393.066
    
    [GRAPHIC] [TIFF OMITTED] T2393.067
    
    [GRAPHIC] [TIFF OMITTED] T2393.068
    
    [GRAPHIC] [TIFF OMITTED] T2393.069
    
    [GRAPHIC] [TIFF OMITTED] T2393.070
    
    Mr. Shays. Thank you very much.
    Mr. deGrazia.
    Mr. deGrazia. Thank you, Mr. Chairman and Mr. Tierney. It 
is a pleasure to appear before you today. Accompanying me are 
several of our members, including two who will testify as well. 
One of them is Larry Borey of HDR from Orlando, FL, and Ken 
Ducey of Markland Technologies. Also accompanying me are a 
number of other HSIA representatives, including Bruce Aitken, 
who is HSIA's president, Yasmin Chirado Chiodini of Intelliorg, 
who is the executive director of HSIA's Florida chapter and 
southeast regional center, Hank Close of ITS Federal, and 
others.
    The Homeland Security Industries Association was organized 
in November 2001, and formally launched about a year ago. Right 
now, we have about 400 members, ranging from the largest 
defense contractors, the names of which everyone here would 
recognize, through mid-sized firms, to startups, and even some 
incubator companies. Our representatives here reflect this 
cross-section.
    Now, in my oral statement today, I'm going to summarize the 
views and recommendations of HSIA and then ask that our 
complete written statement be included in the record of this 
proceeding. The Association's views represent, of course, a 
consensus of HSIA and not the opinion or the particular views 
of any one member. After my presentation, both of the HSIA 
member firms who were invited by the subcommittee to testify 
will comment on their own experience with TSWG and generally on 
their experience with Federal and State procurement in the 
Homeland Security area.
    Now, generally, HSIA wishes to commend Secretary Ridge and 
the Department of Homeland Security on a successful launch of 
this massive new department last January. Given that the 
significant increases in funding for Homeland Security only 
began to become available last March, we believe that DHS has 
moved quickly to implement Homeland Security improvements. Now, 
of course, HSIA members and other companies in the HLS 
industry, not to mention first responders in those State and 
local governments, are frankly frustrated with the pace of HLS 
funding and the early reliance on sole source procurements. We 
attribute this, however, to the evolutionary pace of developing 
a new Federal department and the organizational challenges that 
are understandably associated with such a development.
    Now, with respect to TSWG and Homeland Security procurement 
generally, we have the following recommendations: First, we 
think very highly of the abbreviated procurement process used 
by TSWG, and we think it should be followed by Homeland 
Security procurements generally at the Federal level.
    Second, we think that TSWG's separate procurement Web site, 
www.bids.tswg.gov, should be used as a model for separately 
posting Federal Homeland Security RFPs, RFIs, and RFQs.
    Third, TSWG's dedicated Web site for its procurements 
should be more clearly linked to the DHS Web site.
    Fourth, the Department of Homeland Security should organize 
a series of seminars around the country to educate firms about 
TSWG. In our own organization, we held a meeting to discuss our 
testimony before the subcommittee, and we asked our members how 
many of them had worked with TSWG and how many of them were 
even aware of it. It was only a very small minority, frankly, 
who had even heard of TSWG let alone worked with them.
    Fifth, we believe that greater use should be made of the 
Small Business Administration's offices around the country to 
educate firms about TSWG.
    Sixth, Congress should appropriate additional funding for 
TSWG in order to permit it to conduct debriefing meetings with 
firms who unsuccessfully send equipment or technology to TSWG, 
and also to implement a debriefing system with respect to 
unsolicited equipment or technology sent to TSWG. We don't 
expect that 12,000 people will be talked to, but we do believe 
that the ones that got close should be given an opportunity to 
be told what they did wrong and how they could do better the 
next time.
    Seventh, we believe the incidence of Federal and State 
Homeland Security sole source contracting should decrease. You 
have a very large group of Homeland Security providers, and we 
don't believe that it should be concentrated in the hands of 
one or two companies, even if those companies are members.
    Eighth, we believe the administration should consider an 
inner-agency Homeland Security contracting summit further to 
the goal of creating a harmonized Homeland Security procurement 
system.
    Ninth, Congress should authorize and the administration 
should implement a system of security cleared industry advisors 
from each major area of Homeland Security.
    Tenth, the Department of Homeland Security should much more 
frequently conduct the very successful industry days in order 
to educate industry regarding DHS goals and plans regarding HLS 
procurement.
    And, finally, the DHS should attempt to collect State and 
local HLS procurement information and post it on the dedicated 
HLS Web site recommended above.
    Mr. Shays. Thank you very much. That is very helpful.
    [The prepared statement of Mr. deGrazia follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.071
    
    [GRAPHIC] [TIFF OMITTED] T2393.072
    
    [GRAPHIC] [TIFF OMITTED] T2393.073
    
    [GRAPHIC] [TIFF OMITTED] T2393.074
    
    [GRAPHIC] [TIFF OMITTED] T2393.075
    
    [GRAPHIC] [TIFF OMITTED] T2393.076
    
    [GRAPHIC] [TIFF OMITTED] T2393.077
    
    [GRAPHIC] [TIFF OMITTED] T2393.078
    
    [GRAPHIC] [TIFF OMITTED] T2393.079
    
    [GRAPHIC] [TIFF OMITTED] T2393.080
    
    [GRAPHIC] [TIFF OMITTED] T2393.081
    
    [GRAPHIC] [TIFF OMITTED] T2393.082
    
    [GRAPHIC] [TIFF OMITTED] T2393.083
    
    Mr. Shays. Mr. Ducey, even though you are first among 
equals, it is still 5 minutes.
    Mr. Ducey. Thank you.
    Mr. Shays. Maybe an extra second.
    Mr. Ducey. Chairman Shays, distinguished members of the 
subcommittee. Good morning. My name is Ken Ducey; I am 
president of Markland Technologies, a small company dedicated 
to delivering integrated security solutions to protect our 
country against the threat of terrorism, located in the great 
State of Connecticut. I want to thank you for the opportunity 
to appear before you today to discuss this matter of vital 
importance.
    The U.S. Government and private industry have a long 
history of working together to find solutions to the most 
vexing challenges facing this great Nation. It is the 
entrepreneurial spirit of small, not big, businesses that have 
led to the technological breakthroughs that have revolutionized 
our way of living. We all know the stories of entrepreneurs who 
have overcome impossible obstacles to develop innovative 
products that have made the United States the great nation it 
is. This time will be no different. If we can create a system 
where the entrepreneur and the U.S. Government work together, 
the two most powerful forces in our country, we will create a 
synergy unlike anything ever seen before. Even the 
accomplishments mentioned will pale in comparison to what we 
can achieve in the area of Homeland Security powered by 
cutting-edge technology.
    The first step for developing a winning strategy is to 
create a roadmap to success. This roadmap should be developed 
by a team of experts from the private as well as the public 
sectors, representing all aspects of the issues. This effort 
requires the development of a research environment which is 
driven directly by the field needs of the end user. The 
innovative capability must be designed from day 1 to fit into a 
system that meets the needs of the end users and goes into cost 
effective volume production expeditiously with proper systems 
for maintenance and training which are so key to the end user 
success.
    To accomplish this goal, DHS needs to develop in TSWG and 
other organizations the type of mindset and organizational 
structure that has been utilized very successfully within the 
DOD. The elements of such an organization are: An ability to 
invest in basic technologies that can lead to fundamental 
technical advantages in order to create substantive 
capabilities. The formation of working groups that would 
advocate technologies together. The definition of strategic 
challenges in detail that cross multiple threat spectrum 
scenarios. Support for the conceptual integrated system 
solutions which incorporate new capabilities. Testing of such 
promising capabilities in large-scale proof of concept 
demonstrations. Working closely within the different branches 
of DHS and the Office of the Secretary to broker the necessary 
emotional commitment to the implementation of these particular 
capabilities.
    Namely, it is all about integration, integration at all 
levels and with all parties involved from end user, vendors, 
etc. It is this philosophy of system level integration that is 
employed by our company Markland Technologies when we endeavor 
to produce integrated solutions for container inspection, 
border security, air transportation, and military force 
protection. No single company can solve these problems, and, 
therefore, industry consortiums will be fostered by TSWG to 
produce solutions that incorporate substantive capabilities 
along the best of breed system integration capabilities.
    A quick look around the industry will reveal that many 
disruptive technologies are hidden within small businesses and 
little known research facilities, while much of the best of 
breed system integration capabilities are found within large 
Fortune 500 companies. Therefore, small companies must be 
brought together with large companies to create the necessary 
capabilities to reduce the terrorist threat. Neither function 
by itself will prove adequate to stay ahead of the terrorists 
or to properly counter their God-given ingenuities.
    In closing, I would like to provide one small example of 
our experiences with the successful research and development of 
border security and military force protection technology, this 
technology behind Markland's Vehicle Stopping System. For many 
years now, the San Ysidro border crossing, the busiest border 
port of land entry into the United States, has had to cope with 
attempts at illegal entry by port runners. Undeterred port 
runners provide illegal entry for immigrants, drugs, illicit 
materials, weapons, and possibly terrorists into the United 
States. The INS required a unique solution that would stop the 
cars but not cause fatalities to the occupants of the vehicle 
or border agents. Markland Technologies worked with the INS to 
create, install, and successfully test the Vehicle Stopping 
System [VSS]. This net can capture a car at speeds in excess of 
50 miles per hour with no harm whatsoever to the occupants of 
the vehicle or border agents. The VSS is now a prime example of 
a disruptive capability that can greatly help to counter 
potential threats to the border. Unfortunately, without a 
systems level implementation into all entry/exit vehicle lanes, 
the VSS will sit in storage as a prime exam of what happens 
when you do not bring together all the components of the 
roadmap to success.
    We at Markland Technologies look forward to contributing to 
the future success of TSWG and the DHS by working 
collaboratively to develop the best technology solutions for 
decreasing the terrorist threats currently facing the United 
States.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Ducey follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.084
    
    [GRAPHIC] [TIFF OMITTED] T2393.085
    
    [GRAPHIC] [TIFF OMITTED] T2393.086
    
    [GRAPHIC] [TIFF OMITTED] T2393.087
    
    [GRAPHIC] [TIFF OMITTED] T2393.088
    
    Mr. Shays. Mr. Borey.
    Mr. Borey. Thank you, Mr. Chairman, and Mr. Tierney. My 
name is Lawrence Borey with HDR. We are a national architect 
engineering firm. We have 80 offices and 3,500 employees around 
the country, one in White Plains, close to your district, and 
one in Boston. We also have a wholly owned subsidiary called 
HDR Security Operations, which is headquartered in Orlando, FL.
    My testimony today will be related to facility security 
rather than individual technologies. We have had many years of 
experience with many Federal agencies, both military and 
domestic. We are the principle architects for the renovation of 
the Pentagon, and many of the technologies developed over 
previous years by other firms are being incorporated into the 
improved security of that important building.
    Our experience is that planning, vulnerability assessments, 
policies, and training are often more critical than hardware 
procurement for facilities security. And too often, first 
responders, local governments, State governments jump into 
hardware procurement for security without doing the necessary 
vulnerability assessments and planning.
    We believe that DHS needs a strong central procurement 
directorate and are concerned that the procurement directorate 
to date seems to be a subset of the management under secretary. 
We don't think it's been given enough visibility. Our 
experience with DHS constituent agencies has been favorable, 
however, and we look forward to continuing to provide services 
for architect engineering to the newly created Bureau of 
Immigration and Customs Enforcement which combine three 
agencies before that.
    The existing procurement processes, however, of the 
constituent agencies should not be interrupted while the DHS 
develops its own acquisition regulations. And we also urge that 
DHS acquisition regulations incorporate the Brooks Act, which 
is Form Part 36, for architect engineering services which was--
the champion for which was Chairman Brooks whose portrait is on 
the wall there.
    We are concerned about the inadequate competition for many 
new initiatives in DHS, and our experience is that some 
security initiatives have been sole sourced there the GSA 
supply schedule. Complex analysis such as vulnerability 
assessments are too important and too numerous in terms of the 
number of critical infrastructure components to rely on the 
capacity and capability of a single firm. One particular 
example that I will note was the procurement for port security 
as vulnerability assessments. There are 50 major ports and many 
hundreds of minor ports in the United States. The Congress very 
specifically said that the Coast Guard should do a 
vulnerability assessment on major ports. In order to get up, 
get going quickly, the Coast Guard chose a single contractor 
off the supply schedule. It is our information at the latest 
that the contract is behind schedule for meeting the 
vulnerability assessments in all those 50 ports.
    We've also submitted a preliminary proposal for a national 
backup 911 system to the Office of Homeland Security. We 
received little encouragement from OHS, so we have not further 
developed it.
    I would be pleased to answer any questions, and I am happy 
to submit this testimony.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Borey follows:]

    [GRAPHIC] [TIFF OMITTED] T2393.089
    
    Mr. Shays. Thank you for all your patience, because this is 
a large panel. I'm going to first go to Mr. Tierney, and he 
will ask some questions, and then I have a number of questions 
I want to ask. Thank you for your testimony.
    Mr. Tierney. Thank you.
    I want to thank all of you. This has been an informative 
panel and very helpful. I note the heavy Massachusetts 
influence. And despite the fact that there is one gentleman 
from Connecticut, I say that. I am so proud that many of the 
innovative that are coming out, are coming out with some 
connection to Massachusetts or from Massachusetts. We have some 
wonderful businesses there.
    Mr. Shays. We eat off the crumbs off your table, sir.
    Mr. Tierney. Yes, you do, sir. But you are eating well 
these days.
    I had a few ideas and things I wanted to explore if we had 
the time. One is, all of you I assume that are in a business 
developing something, a patent, or somehow otherwise protect 
the end product. Would that be a fair assumption? I was 
interested in Mr. Sword's statement that you want to make it 
open licensing so that others may still take availability. And 
you are firmly in favor of that from your comments. Is that 
something you think we should require of all contracts done 
with government money, or something peculiar to what you are 
doing?
    Mr. Sword. I want to make sure I'm not misunderstood, sir.
    Mr. Tierney. Or misquoted.
    Mr. Sword. TSWG is defining a common architecture by which 
all competitors' robotic platforms and tools will interoperate. 
This does not mean that we are willing to give away our IP and 
allow other people to produce the intellectual property that we 
have developed in-house. But we are on board with their attempt 
at defining the future of robotics such that multiple vendors 
can provide equipment that will play well together.
    Mr. Tierney. Fair enough. Then let me ask, anybody that 
wants that.
    Mr. Shays. Would the gentleman just suspend for a minute? 
Would you move your robotic creature right in front of us so we 
can see this? That's perfect. Thank you.
    Now, tell us what this thing does.
    Mr. Sword. This vehicle is configured as an explosive 
ordinance disposal robotic tool. The arm you see on it has an 
80 inch reach, it has a 300 power zoom camera with illumination 
on the end of it. At the second joint you will see that there 
is a gripper. The lift capability on this arm is 15 pounds 
working in the near vicinity and 5 pounds at full extension. It 
was designed under contract with U.K. Ministry of defense as a 
solution to one of their high tech next-generation tools. This 
is a good example of requirements-driven design.
    It is as tall as it is. Why? Because it needs to be able to 
look into the upper bins of an aircraft. It also has several 
preset poses on it that assists the operator. This is what I 
cite as an example of the next generation. It takes some of the 
burden off of the operators for EOD because they are no longer 
controlling joint-by-joint control on an arm, but the arm is 
going to preset poses, and it does what we call resolved 
motions, so they can actually fly the gripper or fly the camera 
and the joints will respond appropriately and they don't have 
to understand what each joint angle is going to be. The 
technology has finally caught up with science fiction, and it 
allows us to off-load the operator to be able to more 
effectively accomplish the job.
    Mr. Shays. Thank you very much.
    Thank you. Mr. Tierney.
    Mr. Tierney. And do you get paid to play with that?
    Mr. Sword. I get paid for a lot more than that.
    Mr. Tierney. I'm sure you do.
    My question, then, for those of you who want to answer 
this, is, what, if anything, is the appropriate thing for the 
funding and to the government to then ask back from the 
companies that receive that funding when they have a successful 
commercial product?
    Mr. Sword. I would like to answer that, sir. In this case, 
the TSWG funding is letting us take this particular technology 
from an integrated payload that only functions on our chassis 
and wrap the TSWG common architecture around it so that it can 
be provided to the other vendors and can be purchased by bomb 
squads to use on existing chassis that they already have. That 
way, I'm not forcing them to buy a complete system from me, but 
through TSWG funding, I create this common architecture 
interface on this arm and then make it available to my 
competitors to augment the existing equipment that the bomb 
squads have already invested dollars into.
    Mr. Tierney. Does anybody else care to answer that?
    Mr. Sawicki. A good example of how this process works I 
think was in the development of these clothing systems. When we 
had the first award from TSWG, there was no standard in place 
for first responder protective clothing for these particular 
end users. And through the research that was done through TSWG 
and funding that was provided by our corporation and other 
firms, we were able to provide the National Fire Protection 
Association in Boston a template of the testing they required 
to establish the national standard for these kinds of piece of 
equipment. So we would not be very happy to give up 
intellectual property to anybody else. We felt that the 
synergism that came from the government and various agencies 
within the government and various private companies working 
together allowed us to have a national standard that is now in 
place that, as he said, is sort of a common architecture for 
everybody to do procurements to. I think that's very useful.
    Mr. Tierney. Mr. deGrazia.
    Mr. deGrazia. Yes. Now, typically, the government shares 
with the developer the intellectual property of something that 
is developed under a government contract. But the government 
cannot itself then do anything with that property, can't give 
it to a third party, for a certain number of years. So there is 
a system like that in place as we speak.
    Mr. Shays. If the gentleman would just suspend a second. 
What good does it do to have the property rights if you can't 
use them? In other words, it doesn't make sense to me.
    Mr. deGrazia. Well, the government does get an opportunity 
to use it; it just does not get an opportunity to use it right 
away and set up a third party in competition with the original 
developer. It can do it after a period of time, after the 
original developer has had an opportunity to use it himself.
    Mr. Tierney. And I think somebody mentioned on the earlier 
panel that, should you go out of business or something of that 
nature, the government has then retained the rights to then 
proceed.
    Mr. deGrazia. Yes.
    Mr. Tierney. Thank you.
    Mr. Borey. There is one other aspect to this that needs to 
be taken into account. Sometimes the technology we develop 
needs to be secure so that it can't be misused, either in 
another facility where it wouldn't function as well or by a way 
of disarming the technology. And particularly, entrance 
security or physical security, we designed the standards for 
the U.S. Bureau of Prisons to develop Federal prisons. And 
these were modular systems that could be used in a variety of 
places. Obviously, they are used in different temperatures, 
different humidities, so there were ranges of usability that 
had to be developed into them. And, of course, we also didn't 
want them to--the technology to get out so that they couldn't 
be used for people to enter or get out without proper 
permission.
    Mr. Tierney. Rightfully so.
    Mr. Sawicki, you talked about some barriers to that. And 
one thing that you mentioned was there were people, I thought 
you said there were people that were purchasing your product, 
end users, or products--competitive products that weren't up to 
the standard of your product. And you thought that should be 
corrected in some way that we are not now doing it.
    Mr. Sawicki. Yes, sir.
    Mr. Tierney. Would you expand on that a little bit for me.
    Mr. Sawicki. Yes. I think when the Congress has 
appropriated funds, there has been guidance given to the States 
as they go buy equipment. They say, you should meet national 
standards with your claim. Let's just look, for example, at a 
suit like that. The critical interfaces of the suit are around 
the mask and at the cuffs and the closures. And if you go out 
right now to one of your departments up there and you see 
somebody with duct tape stuck on different places, what they 
are attempting to do is bridge the gap or interfaces between 
these pieces of equipment.
    Now, if you were to go in with a sprayer--and the national 
fire protection association test specifies a spray test--none 
of those duct taped gaps will pass, reliably pass a spray test, 
whereas these systems, since they were designed together as a 
system, will. And you can see, if you are out in the field, if 
somebody sprays some noxious toxic technical and you don't want 
dripping down your chin down--well, you can see where it ends 
up--or in your cuff the same way, then you have to grab 
somebody.
    Mr. Tierney. So communities are choosing to buy something 
that is substandard?
    Mr. Sawicki. Well, I think they are not educated as to the 
standard right now. And because the funding is sort of broad, 
you know, just go buy what you want, basically.
    Mr. Tierney. Excuse me. You are telling me that our funding 
is so broad. I mean, I've seen some of these things, and they 
don't seem as broad, but I would like to know if they are, that 
the funding might say, here is some Federal money, go buy a 
product. We don't say, go buy a product that is up to such and 
such standards or better?
    Mr. Sawicki. Well, when I sat on the interagency board, we 
were trying to transition to the next level, once the standard 
was in place, to require people to buy to a standard. And 
that's happened over the last couple of years. And I think as--
I just urge you, as the funding catches up in the next cycle, 
to follow the interagency board's recommendations, which are to 
purchase to recognized standards.
    Mr. Tierney. OK.
    You also mentioned, Mr. Sawicki, while I have you, that you 
had a project going; you had the picture up there for the burn 
situation.
    Mr. Sawicki. Yes, sir.
    Mr. Tierney. And that was serving a particular need that 
had been identified to you that was, I assume, fairly pressing 
if it made it all the way through the process to be funded. But 
then you said it was stopped for lack of funding.
    Mr. Sawicki. Yes, sir.
    Mr. Tierney. What happened?
    Mr. Sawicki. We went through a 1-year development phase in 
which we met all our milestones, and we believed we had a 
design that would have met all the requirements. It just wasn't 
funded past that. And so we don't have the capability in this 
country right now, in my opinion, to respond to any kind of an 
agricultural outbreak.
    Mr. Tierney. Was there any communication to you as to why 
that wasn't funded, why they didn't choose to move forward on 
it? Was there a competitor coming up with an alternative?
    Mr. Sawicki. No, sir. TSWG actually worked very 
aggressively with us trying to secure additional funding to try 
to get a prototype made. We actually went even up to Canada 
trying to get some money from Canada. And I have to commend the 
TSWG people especially for really working with us on that. My 
understanding was there just wasn't a sufficient budget.
    Mr. Tierney. I guess I'm interrupting you, I'm sorry. But, 
Mr. Chairman, it would seem to me that TSWG would be the one to 
make the decision what the priorities are. It goes back to my 
question of the earlier panel: If you have made a decision that 
this is a priority, why do you stop? Obviously, there are other 
things being done. And if this is in the pipeline, you don't 
stop, you get it done, unless the price is so far out of 
control it just doesn't strike a balance there and you no 
longer can meet that criteria. We will have to look into that. 
I am just struck by that.
    Mr. Shays. I'm trying to nail down a few things; and Mr. 
Tierney was getting to it, so I was happy he was asking these 
questions.
    I want to understand, first off, should I view you as 
scientists creating a product or as entrepreneurs developing a 
product? How do you each view yourself? And let's go down Dr. 
Patel. Maybe both.
    Dr. Patel. I consider myself both scientist and 
entrepreneur.
    Mr. Shays. I'm going to come right back to you.
    Mr. Sawicki. I would answer yes to both of those.
    Mr. Sword. I believe that's the correct statement, both.
    Mr. Mastronardi. I would say ditto.
    Mr. deGrazia. And I would say that our members are from 
both areas and consider themselves both.
    Mr. Ducey. Entrepreneurial.
    Mr. Borey. We are both. We have scientists, engineers, 
technicians.
    Mr. Shays. But among yourself, I'm just trying to 
understand.
    Mr. Borey. Personally, I represent the company; so I am 
neither a scientist nor an entrepreneur.
    Mr. Shays. Fair enough. When you develop an idea, my first 
reaction would be, there is a market for this idea so why do I 
need the government? I can develop this product, and I can make 
money off of it because there is a market. Am I assuming there 
isn't a market? Or do I assume that you are so small that you 
don't have the capabilities? Walk me through why you need the 
government. And I'd just as soon go right up the line here. In 
fact, what I am going to do is I'm going to go every other one 
so we don't have to keep passing the mic while we are waiting. 
So I'll go to you.
    Dr. Patel. When we get good ideas, the risk of developing 
entirely new product is so high that small companies cannot 
afford it. So we often go to the government.
    Mr. Shays. I see all nodding your head. If you have 
something that you would just add to it.
    Mr. Sword.
    Mr. Sword. As I mentioned in my statement, Mr. Chairman, 
the target market really doesn't support large investments in 
revolutionary technology. So it is the infusion of the money 
from the U.S. Government that helps make the breakthroughs 
occur. The market itself just isn't going to allow me to sell 
enough of these robots to ever pay for the research and 
development.
    Mr. Shays. In your case, I can see that. But can't you 
price it in a way that gives you a return? Or even then, it's 
still not going to?
    Mr. Sword. We are attacking other markets that offer more 
lucrative return on the investment, and the technologies can 
cross those boundaries. But to specifically develop a tool to 
dispose of bombs is such a small market that I don't think the 
technologies would ever exist without some push.
    Mr. Shays. Mr. Ducey.
    Mr. Ducey. Well, our organization has a number of members 
that are very large; they are in the billion-plus dollar range. 
And those have no problems developing their technology and 
getting it ready for the marketplace. They have very large R&D 
departments. But when you get down to the mid size and the 
small companies that make up a large percentage of our group, 
they simply cannot afford to put in all of the funds necessary 
to develop--not even something as sophisticated as this, but 
something perhaps a little less sophisticated. And yet the need 
is still there. And that's why they look to the government.
    Mr. Borey. The Federal Government is just one of a number 
of clients that we have to upgrade security operations. If you 
will notice from page 4 of our written statement, we also 
provide these services to health care facilities, to 
universities, museums, and private enterprise, including the 
railroads.
    Mr. Shays. But you didn't really speak to the government 
funding technology. You were speaking about government 
contracting, which is, do you want to share anything as it 
relates to technology as it relates to your area?
    Mr. Borey. Well, we do have some areas that the government 
funds some of the technology that we use in installing the 
security systems in the facilities. But generally that's not 
our business.
    Mr. Shays. Mr. Sawicki.
    Mr. Sawicki. I would like to give you an example--maybe 
that's an unfair thing to do--but from my past life. I used to 
work at Arthur D. Little in Cambridge in technology 
development. And at one time there was a government contract 
area that was very aggressive looking at nuclear flash 
protection. In other words, the magic sunglass that would stop 
a nuclear flash. And we went out to look to optics people.
    Mr. Shays. Let me understand why that's necessary. In other 
words, someone could be blinded?
    Mr. Sawicki. Yes, sir.
    Mr. Shays. OK.
    Mr. Sawicki. In other words, the nuclear flash could be so 
bright and so fast that it would blind particularly a pilot, 
they were particularly interested in pilots. We went out to 
optics manufacturers, and they said, well, we're really better 
off from a market perspective developing sunglasses for surfers 
because we get a much higher return on investment. There really 
aren't that many nuclear flash requirement sunglasses out 
there, and we are just not interested in working with you. Now, 
we went even trying to fund these people with some seed money 
to get going, and there still was very little interest in going 
after that. So we had to go back and find small specialty 
companies to provide funding, directed funding.
    And I think you see the same thing in all these areas, that 
even if the market seems very clear, those of us in the 
business there, when we go to our investors, our board and they 
come in and say, OK, what are you going to invest in this year? 
And I say, well, our return in investment 3 years out is going 
to be a 7 percent yield; but we could open a fast food 
restaurant here in Germantown, Md, which is rapidly growing, 
and make 30 percent. They are going to tell us to get into the 
restaurant business.
    So the technology business is just different from others.
    Mr. Shays. Thank you.
    Mr. Mastronardi. Yes, I think I pretty much echo what 
everybody else has said. For us, we look at two markets. One is 
obviously if there is a return on the investment, and we look 
at markets and determine whether or not a product that we 
develop with our own money will have a reasonable return. But 
very often we're also problem solvers. In the case of our Z 
Backscatter Van, we have been asked by the Army to come up with 
a variant on that technology that they can deploy in Iraq. Now, 
we don't normally have to develop technology that can handle 
135 degrees Fahrenheit temperatures during the day, withstand 
dust storms, fit on to C-130 aircraft, be operated remotely 
from up to 1\1/2\ kilometers away.
    These kinds of things, we look to the government because 
the return on that investment for developing that kind of 
capability is just not there. And we really think that's--if we 
can use some of the government money to support that part of 
it, then we have a good marriage of good products.
    Mr. Shays. Thank you.
    Mr. Ducey. It's all who the customer is. I mean, in most of 
our products they do have commercial applications, but those 
commercial applications are multiple years out. In the 
meantime, a lot of things have to be funded to create those 
applications, and typically the government is the first 
customer for these new technologies.
    Just going back to your example with the housewife, for 
example. If she does have a solution to a problem that she is 
aware of----
    Mr. Shays. I said homemaker.
    Mr. Ducey. I'm sorry. Homemaker. If she is a homemaker and 
has a technology that she believes can solve a problem, I doubt 
in most cases that she would have the resources to take that 
product, develop it into a prototype, test it, etc., to get it 
through. That's where the government can come in and help. We 
do a lot of business with a lot of end users at the borders of 
the country, etc., that also have these amazing ideas, but they 
have to have a facility in order to get them prototypes 
developed, etc.
    Mr. Shays. I have a confession. At this hearing, I said 
homemaker. The first time I used that story I said housewife 
and----
    Mr. Ducey. I was there, too.
    Mr. Shays. And I was corrected quickly. And rightfully so.
    Mr. Patel--Dr. Patel, I'm sorry. Your cards that you 
developed, tell me first who the market was for these.
    Dr. Patel. I'm sorry?
    Mr. Shays. Who is the market for these? Who is the 
potential buyer?
    Dr. Patel. There is no buyer other than the first responder 
or the government.
    Mr. Shays. In many places this would potentially be folks 
at Customs?
    Dr. Patel. Yes. It would be mainly the first responder, 
police, firefighters, who in case of dirty bomb explosives, 
they have to respond first.
    Mr. Shays. So that would be local, potentially State and 
Federal?
    Dr. Patel. Pretty much local----
    Mr. Shays. A pretty wide market.
    Dr. Patel. Correct.
    Mr. Shays. And let me be clear. You developed this with 
funding. How much funding did you receive?
    Dr. Patel. First it was funded by the Navy. They were the 
first to come out with SBIR phase one and two, which is about 
three quarters of a million dollars.
    Mr. Shays. Of a million?
    Dr. Patel. Yes. And then there was some problem with 
developing darker color at lower temperature and lighter color 
at higher temperature.
    Mr. Shays. You had to keep perfecting it?
    Dr. Patel. And that's right. And so we solved some of those 
problems.
    Mr. Shays. Is this ready to go in operation?
    Dr. Patel. It is almost ready. In that form, yes, it is 
ready to go in operation.
    Mr. Shays. And in the process of doing research, the 
government is assessing its value?
    Dr. Patel. Yes. That's where we are. The Navy is 
evaluating, so is TSWG.
    Mr. Shays. In other words, at one point you are developing 
the product. The next thing, though, the government is trying 
to see if it meets its standards. Is that--and this was not 
done at the request of the Federal Government. You did it; you 
basically came to the government.
    Dr. Patel. No. The original proposal was solicited by the 
Navy. That they were looking for an instrument type to 
distribute in case of nuclear explosion.
    Mr. Shays. OK.
    Dr. Patel. And then TSWG saw that this could be used by 
first responders in case of a dirty bomb.
    Mr. Shays. Right.
    Dr. Patel. The Navy and our government must have foreseen 
that could be such a need. So the Navy had solicited the 
proposal.
    Mr. Shays. But the government hasn't bought this yet; they 
just helped you fund it?
    Dr. Patel. TSWG has bought 6,000 of them.
    Mr. Shays. OK. How do you decide ultimately--this seems a 
little bit on the side, but it is related. How does the 
government decide what they are going to pay you? And how do 
you decide whether you are willing to sell? And, by the way, 
can you refuse to sell afterwards?
    Dr. Patel. The government----
    Mr. Shays. Let me state all the questions I have. Can the 
government set the price? First, can you set the price? Can the 
government set the price? And can you refuse to sell this 
product once the government helped you develop it?
    Dr. Patel. First thing, I would not refuse for the price or 
it would not matter, because if the Nation needs it, so it is 
my pleasure to provide this to the Department.
    Mr. Shays. No, you are not going to do it for nothing.
    Dr. Patel. No. Of course I would not do it for nothing. I'm 
in business and would like to make a profit.
    Mr. Shays. Certainly.
    Dr. Patel. But still, if the government needs it or 
cities----
    Mr. Shays. Maybe I'm giving something too hypothetical for 
you. Maybe I'm suggesting something where you don't think that 
would happen. You think you will arrive at a price. But maybe 
one of you could tell me how the government sets a price. Mr. 
Sword. I mean, Mr. Mastronardi. I'm sorry.
    Mr. Mastronardi. OK. For our equipment, which is pretty 
much capital equipment, very often the price is set for the 
government based on our cost. The government has the right to 
come in and audit our books and find out how much the cost, and 
then we're are able to put a modest fee on that and that 
establishes the price. And we have to use that as the lowest 
price as always sold to the U.S. Government, and any other 
commercial price has to be somewhat higher than that anywhere 
in the world. So that's one way the price can be established if 
you have not established a commercial price for it. But 
typically, if it's developed by the government, that's the way 
the price is developed.
    Mr. Shays. I don't know if it was in response, Mr. Tierney, 
Mr. Sword responding to your question or someone else, where 
you were talking about purchasing a product that didn't work. 
Who was----
    Mr. Tierney. Mr. Sawicki.
    Mr. Shays. Mr. Sawicki. Thank you. When the committee went 
to Los Alamos at the lab there, they were showing us detection 
equipment that they said was being sold to the government and 
no one had ever consulted with them as to how effective it was. 
And they showed us different products, and some worked better 
than others and some didn't work well at all, and yet the 
government was purchasing some of this, which was kind of 
intriguing to me. Were you suggesting that the government is 
buying certain products that just simply don't work?
    Mr. Sawicki. Yes.
    Mr. Shays. OK.
    Mr. Sawicki. I said they work less effectively than others. 
It depends if you have nothing.
    Mr. Shays. In other words, if they had done more research, 
they would have found there was a better product. It just 
didn't get their attention.
    Mr. Sawicki. Yes.
    Mr. Shays. What this triggers in my mind is, if TSWG is 
basically helping you do the research, does it also become a 
stamp of, a house for goodkeeping stamp of approval? Does it 
become something that you kind of go to whoever you are selling 
and saying this has gone through this process and they like it 
and whatever?
    Mr. Sawicki. Yes. That's a very effective marketing tool.
    Mr. Shays. Does anybody else want to respond to that? Yes.
    Mr. deGrazia. Under TSWG, it's as my colleague next to me 
has said. Under TSWG, you have a set of cost, and then they--
TSWG and you determine what the price is going to be based on 
the cost. But with regard to SBIR, there is an upper limit for 
each phase of development, and so those programs are entirely 
different as to how they fund and set a price for a product.
    Mr. Shays. Thank you.
    Mr. Tierney.
    Mr. Tierney. Thank you. Just out of curiosity, I would like 
to know an experience, if any of our witnesses actually 
submitted a proposal that was not solicited? You have. Would 
you tell me what the experience was on that in terms of how you 
were treated and how it was dealt with, as opposed to those 
that were solicited.
    Mr. Borey. Well, I mentioned to you that one of the things 
we did as a result of September 11 was develop with a software 
company a concept, a preliminary proposal for a national 911 
backup system which would be located initially in one part of 
the country, we were considering Offutt Air Force base as one 
potential place mainly because of the connection by fiberoptics 
there throughout the country. And we brought it to the Office 
of Homeland Security.
    As a matter of fact, HSIA helped us do that, and we are 
still in a preliminary proposal face. And we gave them an idea 
of how it would work, and basically they said, that's nice, we 
are not able to respond to that right now. And we've never 
heard anything back from them on it.
    Mr. Tierney. So you don't know if it's dead or just in 
limbo?
    Mr. Borey. Yeah. We have not gone any further to develop 
the proposal further.
    Mr. Tierney. Thank you.
    Mr. Mastronardi, you talked about spreading the 
opportunity. I think you mentioned that you thought there were 
too many small projects being funded and not enough larger 
being funded. Is that a fair restatement of what you said?
    Mr. Mastronardi. Yes.
    Mr. Tierney. What leads you to that conclusion, and what do 
you think ought to be done about it? How could they do 
something about that?
    Mr. Mastronardi. Well, I think that we may not have all the 
facts to back that up; but it appears that the money, you know, 
at least initially was spread around a lot to try a number of 
ideas. You know, in order to really have an impact on some of 
the mission objectives from the Department of Defense, you 
really need to focus and execute well throughout the process. 
And that requires a fair amount of money.
    Very often, we find that if we come in with a proposed 
solution that requires a fair amount of money in the millions 
of dollars, that it doesn't get funded. And I guess that's been 
our experience; that if you come in with something less than a 
million dollars, your chances go up dramatically.
    Mr. Tierney. Regardless of what the apparent need is? 
Again, I think this would be another area; if we had some 
priorities, that would help us to decide whether or not we 
ought to spend more than a million because it is just that 
important versus something else.
    Mr. Mastronardi. And that's fair.
    Mr. Tierney. And I guess it goes back to that.
    There was also some mention by a couple of you. Mr. 
deGrazia, I think you mentioned it as well as Mr. Mastronardi, 
and I'm not sure who else, about sole sourcing on that. And I 
was a little confused, because Mr. Sawicki I think you 
mentioned you had five contracts on that. I was watching to see 
if there was a reaction from you, from the aspect of saying 
that it goes to the same people all the time or not. Does 
somebody want to talk about that? Maybe you want to talk about 
a little bit, Mr. Sawicki, Mr. deGrazia, and tell me what we do 
about that or how it is that you come to the conclusion that 
you think that it's a problem.
    Mr. Sawicki. I think it's the larger contracts that tend to 
be sole sourced. The smaller ones seem to be spread out, as you 
said, among a lot of different firms. But occasionally you will 
see something in the newspaper you've never even heard about, 
never had a chance to bid on where, you know, so and so got the 
$500 million contract to do a nationwide integration of 
something you say we didn't even see that. You couldn't even 
get on the team. And I think that's happened quite a bit since 
September 11. And in a lot of different agencies, whatever 
process has been used to do that selection, I'm not sure, but 
it is frustrating.
    Mr. Tierney. That was a huge issue of contention of this 
committee when we were dealing with the establishment of 
Homeland Security Department, and there were many of us--and I 
think the chairman might have even joined us on that one--who 
thought that was not a good process to go. There's a provision 
for that in the Department of Defense contracts. Many of us 
thought that was not the way to go to any excessive degree in 
this, and we think that the language did open it up too much. I 
would assume that we are going to revisit that in future 
iterations of the legislation. But it was a very conscious 
thing that was done. There was a large debate about it; there 
was a wide chasm disagreement amongst people on that. So you 
are hitting right on what I thought you were talking about at 
any rate.
    Let me just ask one last question, and then, Mr. Chairman, 
I have to go if you are going to stick around. But Mr. 
deGrazia, you talked about the need for forums, maybe with the 
Small Business Administration's participation and others, to 
educate you industry out there on that. Are there any efforts 
like that going on now that you are aware of? Have you had 
contacts with the SBA to start initial discussions on how that 
might be done? Or is that just an idea that you broached today?
    Mr. deGrazia. It's an idea that our members have come up 
with. Now, the industry days that have been done by the 
Homeland Security Department are tremendously successful in 
educating industry about what's out there. But too many of the 
technologies and too many of the technology companies, 
particularly the small or mid-sized ones, simply do not know 
what is out there and do not know what is available. What our 
members are saying to us is, we need some sort of a forum where 
we can find out more about what we can do. As I've mentioned in 
my testimony, we threw out the name of TSWG to a number of our 
members and got a very small response.
    Mr. Tierney. The chairman was afraid to even say it.
    Mr. Shays. That's true.
    Mr. Tierney. I'm going to have to excuse myself. I want to 
thank everybody very much. I know that some of you are coming 
over to my office later, and Mr. McDermott behind me will be 
happy to accompany you over there. Thank you all very, very 
much. I appreciate your testimony.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    I'm just going to go for 5 minutes. I would like to just 
note for the record that Mr. McCallum has stayed to hear what 
you all are saying, and I appreciate that very much. And I 
think that we have other representatives from the first panel. 
So we do thank them.
    I'm getting a sense that TSWG is kind of like the small 
businessman's place to go to get support. If you are big 
league, you don't; you go to DARPA and go elsewhere. I don't 
know if that's an accurate way to think of it. But you all have 
kind of mentioned defense, and I get a little nervous because I 
don't want the Defense Department to rule. In this issue, we 
are talking about Department of Homeland Security. And I would 
love to know whether you intend to come back to TSWG in future 
projects, and whether you intend to come back on anything you 
have thought about that simply--Mr. Borey has mentioned, he 
went on his own accord on some proposal he had.
    But you all seem to have responded to proposal rather than 
to have thought of one yourself and said we want to move 
forward. So I would like to have a response to that. Are you 
planning to go back with other items, do you think it's going 
to be a waste of time if you go on something that hasn't been 
solicited? And so on?
    Dr. Patel. My personal experience is very professional. I'm 
dealing with very professional people. And if there is a 
proposal or concept I have that can be funded by TSWG, I would 
definitely submit a proposal.
    Mr. Shays. And you would go there first before going to the 
Department that might have the direct focus on that innovation?
    Dr. Patel. I have to use my judgment. If there is direct 
focus and it could be funded by that agency, I would consider 
both and then have to select one.
    Mr. Shays. In other words, is TSWG going to be your first 
place to go or your second place? And that doesn't mean 
something bad about them, it just means that you may feel that 
you have a more specific issue that you can get a better 
response. I'm going to ask it this way. Would you rather go to 
TSWG first to be turned down, or go to the Department first to 
be turned down? Which one do you go to first and why? That's 
really what I'm asking.
    Dr. Patel. If it is related to Homeland Security or so, I 
would go to TSWG first.
    Mr. Shays. So, Homeland Security, you'd go to TSWG first. 
That's how you've kind of sorted that.
    Dr. Patel. Yes, sir.
    Mr. Ducey. I'd go to the Department of Homeland Security 
first, only because the only way TSWG works is if we find the 
need first. So if we--there has to be a--much like on the first 
panel, they said there is a lot of technologies out there; a 
lot of them are really cool, but a lot of them don't solve a 
single problem. Where we have found the best luck is if we can 
talk with either end users or people within the Department of 
Homeland Security who actually have a specific problem that we 
can match up to a technology, whether still in development or 
seen through its fruition, then go backward, and try to figure 
out how to get the funding for it. At that point in time, we 
would go to TSWG.
    Mr. Shays. But it almost is like you have a resume for a 
job; you want to speak to someone, you just don't want them to 
see your document. You want to talk to someone, a real person. 
Maybe I'm reading something more into it. In other words, are 
you saying you are doing your homework with someone else before 
you go to TSWG because you've only got one shot there and it's 
a piece of paper and you want to make sure you kind of set the 
groundwork?
    Mr. Ducey. Exactly. That's one. And the other is, any 
technology can be used in multiple areas. So if we can find the 
real need out there for this technology and then work backward, 
it's just more effective.
    Mr. Shays. So you think TSWG has a broader view?
    Mr. Ducey. Yes. If anything, I think they have too broad a 
view. If that's where--if we talk to Department of Homeland 
Security and they have a very narrow view on exactly what's 
needed, then we can take the technology and match that up, then 
we can go back to TSWG with that.
    Mr. Shays. Let me just persist a little more. In the 
process of going to Homeland Security, you feel kind of you're 
lobbying first before someone who ultimately is going to--and 
there's nothing wrong with that, but I'm just trying to see how 
you work within the system.
    Mr. Ducey. I'm not sure----
    Mr. Shays. Let me just finish the question. Are you 
basically saying that you would go to Homeland Security, get to 
talk to someone who is a real live person; then you would go to 
TSWG, have a better idea, it has a broader approach; maybe 
someone will identify a use somewhere else, but you have a 
person in the room that already knows a little bit about what 
this is about? Is that part of your approach?
    Mr. Ducey. Exactly. I just don't know--not that it has 
never happened or couldn't happen, but I'm not sure, just 
alone, a small company such as ours going to TSWG would get 
much exposure or recognition, attention. But if we went to TSWG 
as a small company such as ours and also had some sort of 
advocate or sponsor within the Department of Homeland Security, 
that's where it would work the best.
    Mr. Shays. I saw a few nodding of the heads here. Do you 
want to speak to that?
    Mr. Mastronardi. I think that's accurate. If you have a 
client within the government who has a specific need and you 
have an idea to fulfill that need, if you had to work it 
through TSWG, it would have to fit into requirements that got 
into a broad agency announcement, or even somehow supported as 
an unsolicited proposal. But if you are going in through broad 
agency announcement, you are going in against 12,000 other 
people with one sheet of paper, and sometimes it's much more 
expeditious to go directly to the people who need the 
technology the most and can really define exactly what they 
need. And, you know, that would be the first preference, 
because if you are a problem solver, that's the quickest way to 
have a path to solution. But I do believe that TSWG also serves 
a purpose of trying to collate the general requirements and 
needs of the Federal Government and putting them into 
categories that people can respond to to get a broader, you 
know, technology base for Homeland Security.
    Mr. Shays. What we are trying to do in part with this 
hearing is to make sure that the significant number of ideas 
that are being presented don't get lost. And kind of what I'm 
hearing is, though, you still need an advocate, or you'd feel a 
little more comfortable if you have an advocate within TSWG. 
So, as much as on paper you have this one piece of paper. You'd 
feel a little better if you got someone who says don't overlook 
this proposal here.
    Mr. Mastronardi. I think that is accurate. With 12,000 or 
so respondents to a broad agency announcement, it is really a 
pretty daunting problem to sift through all of those and say, 
OK, based on one sheet of paper this is the technology of 
choice to fund.
    Either it needs an advocate that says this is exactly what 
we need, or there needs to be, as someone suggested, a couple 
of other pages attached to this, that if it sounds even close 
to being of interest, then there is a little bit more to read 
initially before it gets----
    Mr. Shays. But if I now do the inverse, what that suggests 
to me is if someone doesn't do that we may be losing some 
really good proposals, because what you seem to be suggesting, 
and it seems logical to me, one page is a pretty difficult way 
to present your case. You may lose it. It may be a great idea.
    Any other comments on this?
    Mr. deGrazia. Yes, Mr. Chairman. One of the issues, the 
general issues that our members have, is with the whole 
unsolicited proposal process itself. It is not generally well 
understood. And I can attest from the other side as well, 
because I used to use--we used to work for the Defense 
Department, and we would get unsolicited proposals through all 
sorts of channels and it was very clear that the people who 
were submitting them didn't have any idea of how the process 
worked.
    In talking to my members in my current role, some of them 
do, of course, but not a lot of them know what is going to 
happen to an unsolicited proposal when it gets somewhere or if 
it gets somewhere.
    Mr. Shays. Let's do this. Let's finish up here. Is there 
any closing comment that any of you would like to make? 
Anything you think needs to be put on the record?
    Mr. Ducey. Just to add on what you just said. I believe 
that there needs to be different--there is no way possible, I 
don't think, that TSWG could ever have the resources to judge 
all of these different proposals.
    And that is where, I think what we are really asking you to 
do is reach out into other areas, whether it be private 
industry, whether it be the end users or industry experts, to 
try to really help them go through that filtering process that 
you are talking about, whether the ideas are solicited or 
unsolicited.
    Mr. Shays. You know, it would be interesting if they had a 
process to do this. And then they had another group that could 
take a second look, and maybe this is even something that a GAO 
report could do, to see if we are losing some good ideas, and 
have another panel of experts look at it and say, you know 
what? You should have tried this and then brought that 
individual or individuals forward to make their proposal and 
see if we are missing some good ideas.
    That would be interesting. Thank you for that suggestion. 
Any others?
    Mr. Sawicki. I would like to echo the comment before about 
there is a certain cost range that TSWG seems to be comfortable 
in funding, typically under a million dollars for an effort.
    Mr. Shays. That is OK?
    Mr. Sawicki. I think that is OK. But a lot of times will, I 
won't say dumb down, that is the wrong thing, will condense the 
scope of a proposal to try to get it under a million dollars 
for perhaps a technology that really will cost a lot more. And 
I will just throw one out on the table, because it is an 
extraordinarily difficult one, which is biodetection and 
analysis.
    It is really hard. Everybody wants a $50 card like the 
radiation one that will tell you 20 different biological 
agents.
    Mr. Shays. You think this is going to cost $50.
    Dr. Patel. No. It is under $10.
    Mr. Sawicki. That one is $10. The one that they always use 
for bio is 50.
    Mr. Shays. I think you are asking too much. If I was 
negotiating with you I would say 5. It is a great idea, but you 
are going to sell a lot of these. I am sorry.
    Mr. Sawicki. Some of these things are extraordinarily 
difficult, some of these technology challenges, and a lot of 
times you will come in and try to narrow your scope to just 
look at something so you can get into a range that TSWG would 
want to fund. And you will get a comment back saying, well, you 
didn't address all of the issues or something like that, and it 
is really difficult sometimes to try to do that within that 
budget range.
    So I think it almost would be a--part of the Department of 
Homeland Security or some other agency, a way that would fit 
into the TSWG process so they can say, well, that is not within 
our scope, it ought to go somewhere else. So I think the 
debrief process and some direction back, especially to small 
companies that was mentioned earlier, would be very useful.
    Mr. Shays. I agree with that, and I will just repeat what 
you are saying. I think it would be very helpful to have a 
debriefing. We have done that with some constituents who have 
applied for Federal grants, and they haven't gotten it and they 
wanted to know why. And going through that process has really 
helped them the next time around.
    Any other comment, or should we call it to a close here?
    Mr. Sword. I will try not to drag it out, Mr. Chairman. But 
if I could make the comment that I think TSWG does, at least in 
the field that I address, in bomb disposal, surround themselves 
with experts that understand what the end users need. I think 
this is very key when they are trying to make their decisions 
on which technologies to fund and not to fund.
    The people I work directly with are really contract workers 
supporting TSWG, but these guys have survived 23 years of 
disarming bombs. So they understand very well what the end user 
wants, would not like, would tolerate, would not tolerate. I 
think that is something to be said in their favor, and that 
they do actively go after the talents that understands those 
fields well. And they are the interactions with the 
contractors, they are helping guide the direction that the 
technology is going to head to.
    I think that is a very positive thing, that if the 
Department of Homeland Security is going to try to duplicate 
the process, they need to do similarly, by surrounding 
themselves with the experts that understand what the end users 
need.
    Mr. Shays. Thank you. Any other comment? Thank you all 
very, very much. You have been an excellent panel. Thank you. 
Appreciate you coming to Washington to help us out.
    I just want to thank two people on the staff, Joseph 
McGowan,
who is a detailee from the Department of Labor IG. And we thank 
him. And Mary Holloway, intern during the summer from 
Washington and Lee University. And we thank her as well. I 
would like that part of the record. Thanks for accommodating 
us.
    This hearing is adjourned.
    [Whereupon, at 5:05 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2393.090

[GRAPHIC] [TIFF OMITTED] T2393.091

[GRAPHIC] [TIFF OMITTED] T2393.092

[GRAPHIC] [TIFF OMITTED] T2393.093

[GRAPHIC] [TIFF OMITTED] T2393.094

[GRAPHIC] [TIFF OMITTED] T2393.095

[GRAPHIC] [TIFF OMITTED] T2393.096

[GRAPHIC] [TIFF OMITTED] T2393.097

[GRAPHIC] [TIFF OMITTED] T2393.098

[GRAPHIC] [TIFF OMITTED] T2393.099

[GRAPHIC] [TIFF OMITTED] T2393.100

[GRAPHIC] [TIFF OMITTED] T2393.101

[GRAPHIC] [TIFF OMITTED] T2393.102


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
